<html>
<title> - FORTY YEARS AND COUNTING: THE TRIUMPHS OF TITLE IX</title>
<body><pre>[Senate Hearing 112-916]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-916
 
                       FORTY YEARS AND COUNTING: 
                        THE TRIUMPHS OF TITLE IX

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING TITLE IX, FOCUSING ON FORTY YEARS AND COUNTING

                               __________

                             JUNE 19, 2012

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
                                
                                
                                
                                
                                
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                                
                                
                                
                                
                                
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                              U.S. GOVERNMENT PUBLISHING OFFICE
           92-384 PDF                    WASHINGTON : 2015               
      ___________________________________________________________________________________
      For sale by the Superintendent of Documents, U.S. Government Publishing Office,
            Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
      
      
      
      
      
      
      
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland             MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico                 LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                  RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont              JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania        RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina              ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                      JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                     PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado               LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island          MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut

                      Pamela Smith, Staff Director

                 Lauren McFerran, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JUNE 19, 2012

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     2
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     4
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    40
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    42
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................    45
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    47

                               Witnesses

King, Billie Jean, Former Professional Tennis Player, New York, 
  NY.............................................................     6
    Prepared statement...........................................     8
Hogshead-Makar, Nancy, J.D., Olympic Swimming Gold Medalist, 
  Professor of Law, Florida Coastal School of Law, Jacksonville, 
  FL.............................................................    10
    Prepared statement...........................................    12
Jemison, Mae Carol, M.D., Physician and Retired NASA Astronaut, 
  Houston, TX....................................................    21
    Prepared statement...........................................    23
Stosz, Rear Admiral Sandra L., Superintendent of the U.S. Coast 
  Guard Academy, New London, CT..................................    30
    Prepared statement...........................................    32

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Lisa Maatz, Director of Public Policy and Government 
      Relations, American Association of University Women (AAUW).    51
    National Women's Law Center (NWLC), letter...................    54
    Response to questions of Senator Enzi by:
        Billie Jean King.........................................    55
        Rear Admiral Sandra L. Stosz.............................    56
    Response to questions of Senator Murray by:
        Billie Jean King.........................................    56
        Rear Admiral Sandra L. Stosz.............................    57

                                 (iii)

  


                       FORTY YEARS AND COUNTING: 
                        THE TRIUMPHS OF TITLE IX

                              ----------                              


                         TUESDAY, JUNE 19, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Enzi, Mikulski, Murray, Hagan, 
Franken, and Blumenthal.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Over the past century, women have made remarkable strides 
toward equal rights and equal participation in American 
society. We now just take it for granted the idea that any 
little girl can grow up to become a doctor, a lawyer, a famous 
tennis player, or an astronaut, or the superintendent of the 
Coast Guard Academy--whatever she wants to be.
    Today, America's leadership on the issue of equality for 
women and girls is unmatched anywhere around the globe. 
However, there was a time in our country when we could not 
envision this kind of progress. The passage of title IX of the 
Higher Education Act in 1972 truly opened the door of 
opportunity for women in academics, sports, and the workforce. 
Today, we are here to celebrate the successes of title IX.
    Championed by Representatives Patsy Mink and Edith Green in 
the House and Senator Birch Bayh in the Senate, title IX states 
that no person in the United States shall, on the basis of sex, 
be excluded from participation in, be denied the benefits of, 
or be subjected to discrimination under any education program 
or activity receiving Federal financial assistance. That's it--
very simple and very straightforward.
    And let me underscore two things. Title IX is gender 
neutral. It ensures equality under the law for men and women. 
And, second, title IX applies to any education program or 
activity receiving Federal assistance. This means that 
everybody gets a chance to take the course of study they wish, 
to participate in athletics, and to attend school or go to work 
in an environment free from harassment and discrimination.
    It is a commonly held belief that title IX only applies to 
athletics, but that is not the case. Title IX applies to all 
activities at educational institutions receiving Federal 
funding.
    We all benefit from gender equality. The highest growth, 
highest wage careers today, careers that are critical to 
America's economic success and national security, are the same 
careers that were traditionally off limits to women before 
title IX's passage. Well, that has changed dramatically.
    For example, according to the U.S. Department of Education, 
today, girls in high school are taking science and math at 
higher rates than boys and doing better in those subjects, too. 
And though there is more progress to make, the percentage of 
women receiving doctorate degrees in all STEM fields--science, 
technology, engineering, and math fields--has risen steadily 
since 1972.
    When title IX was passed, almost no women participated in 
career and technical education. Today, one-quarter of career 
and tech students are women. To state what ought to be obvious, 
by doubling our potential talent pool in all academic 
disciplines, careers, and sports, we become stronger as a 
nation.
    Today, we will hear from a distinguished panel: an 
accomplished athlete, a legal scholar, an astronaut, and an 
admiral, who will discuss how the world has changed for women 
since title IX's passage. In the last 40 years, we have seen 
many firsts: the first woman Supreme Court Justice, the first 
woman in space, and the first woman Speaker of the House. 
Today, outstanding women scientists, athletes, business 
executives, and military officers are not only role models for 
other women and girls, but they are role models for all of us.
    Title IX has so much in common with the great civil rights 
laws of the 20th century, including the Civil Rights Act of 
1964 and the 1990 Americans with Disabilities Act. These laws 
are about expanding the scope of freedom, opening doors of 
opportunity, and ensuring fair and equal treatment for every 
member of our American family.
    With that, I will introduce Senator Enzi for his opening 
statement.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. This is one of my 
favorite days of the year. I get to meet some famous people, 
and those famous people have opened the doors so that 
generations to come will have a lot more famous people, famous 
women.
    And, Dr. Jemison, I've got to tell you I'm a little 
intimidated by you. I was part of the rocket boy generation, 
when Sputnik went up and we found out we were way behind. And 
so to meet an astronaut is particularly a pleasure.
    I've, of course, gotten to see Ms. King and her famous 
swimmer here as they performed. And that's always exciting.
    I do come from Wyoming, which was the first State to allow 
women to vote. And they did that while we were still a 
territory. They were hoping to increase the number of voters so 
that we could become a State.
    [Laughter.]
    Senator Enzi. There's more to the story, though. When we 
did apply for statehood, they said, ``Well, you can be a State 
as long as you will take away that right for women to vote and 
to own property.'' And to the credit of that all male 
legislative body, they said, ``We'd rather not be a State,'' 
and they waited a while longer for statehood.
    But when it happened, we had the first woman judge, first 
woman Governor, first woman councilman, first women's--most 
everything, including the first woman to own a bank. So I'm 
pleased with title IX and feel that it fits in with the Wyoming 
tradition. I think it's one of the most important civil rights 
laws, and it's an example of what Congress can do when we work 
together to do what's right.
    We need only look at the statistics to see the profound 
impact title IX has had on opening opportunities for women over 
the past 40 years. In 1975, degree attainment by men far 
exceeded that of women. However, women now exceed men in both 
undergraduate and graduate degree attainment. According to the 
Department of Education, women today earn nearly 60 percent of 
the bachelor's degrees and more than half of the doctoral 
degrees.
    Any discussion of title IX is not complete without 
acknowledging the role it has had in opening opportunities for 
women in athletics. As Senator Murray has pointed out before, 
only 295,000 girls participated in high school sports in 1972 
compared to 3.67 million boys. That was just 7.4 percent of all 
high school athletes. Since then, participation in women's 
sports has grown exponentially. Today, 3.2 million girls 
participate in high school sports compared to 4.5 million boys.
    Despite this progress, we cannot afford to be complacent. 
America's economy is at a crossroads, and we need to graduate 
more engineers, scientists, and mathematicians if we are to 
continue to be the world's technological leader. This is where 
I see the greatest possibilities for young women. Right now, 
women continue to receive far fewer jobs in STEM-related 
fields. We need to do more to achieve progress in that area.
    Our witnesses today are four extraordinary individuals who 
have had remarkable achievements throughout their careers. Each 
of these women represent exactly what Congress set out to 
achieve when it passed title IX, that is, to make sure that 
women and girls have the same opportunities to succeed that men 
have enjoyed for decades. And these four women not only made 
sure that they took advantage of those opportunities, they 
became leaders and role models, encouraging other young women 
to live up to their potential.
    I look forward to hearing from each of you and discussing 
how we can continue to encourage even greater achievements from 
future generations of women.
    Thank you, Mr. Chairman.
    The Chairman. We usually just have opening statements by 
the chair and ranking member. But because she has been such a 
leader in this area for all of her adult life, including all of 
her life here in the House and the Senate, I'd like to 
recognize Senator Mikulski for a statement.

                     Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Senator Harkin, and 
for your extra courtesy here today. We are celebrating the 40th 
anniversary of the passage of title IX, and we salute Patsy 
Mink, who led the fight in the House, and Birch Bayh, our 
colleague here in the Senate.
    In 1972, I never thought I'd have warm thoughts toward 
Richard Nixon. But here we are today, and I think we need to 
acknowledge President Nixon's leadership in moving the title IX 
legislation forward. Without his support, I don't believe we 
would have been successful.
    Title IX is regarded as one of the most important pieces of 
legislation in advancing opportunities for women and girls. 
Often, the biggest press goes to sports achievements. But title 
IX was meant to open doors and establish parity, particularly, 
in the field of education, and along with that would be equal 
participation in college athletics.
    In 1972, women were not in many universities. Harvard, 
Princeton, my own hometown of Johns Hopkins was all male and 
mostly all white. Women were not included in the protocols at 
the National Institutes of Health. And whenever a woman 
achieved something, she was viewed as a celebrity rather than a 
scholar or as an outstanding athlete.
    So much has changed. And today we'll hear from, really, the 
founding mothers and the first to be able to move so many of 
these advances forward. Each and every one of them in their own 
way has an incredible personal narrative, and we support them.
    Billie Jean King. I remember the famous tennis match with 
Bobby Riggs, when we chose sides and you all fought it out. We 
saw you give the word ``glove'' a new meaning in terms of that 
challenge.
    But I also remember, as we moved the title IX legislation 
forward--and Dr. Jemison, as a physician, you'll appreciate 
this--Dr. Edgar Berman testified at one of our hearings, a 
distinguished Hopkins doctor, a wonderful man, 21st century 
science, but 19th century attitudes toward gender. He said 
women shouldn't be given equal access to a number of things 
because we have raging hormones. And I said in my own way, 
subtle and discreet, ``I have raging hormones because of guys 
like you.''
    Well, we're beyond raging hormones. We're beyond celebrity 
status. We're into the achievement status. And thanks to title 
IX, women are no longer viewed as novelties when they make 
achievements. Women are no longer viewed as celebrities when 
they achieve things. They're viewed as athletes, as scholars, 
as physicians, as scientists, as superintendents of our great 
educational military institutions, like the Coast Guard 
Academy.
    Admiral Stosz is a Maryland woman, so I am especially proud 
of her. And we're reminded of the fact that Dr. Bernice 
Sandler, then a doctoral student at the University of Maryland, 
was denied a faculty teaching position and was told she was 
just too bossy for a woman. Well, we in Maryland have heard 
that before, and we don't put up with it. I didn't put up with 
it, and I am bossy. But Dr. Sandler began to organize. That was 
the aegis of title IX.
    There have been many achievements, and my colleagues in 
their own way have outlined those. But we're very proud of all 
of you. You are the founding mothers. You broke the glass 
ceilings. And while we think of you as being the first, for a 
long time, you were the only. But because of your legacy, you 
were not only the first, but the first of many.
    Thank you for what you did. Thanks to President Nixon. And 
thanks to all who have made this possible.
    The Chairman. Thank you very much, Senator Mikulski.
    Now, we'll go to our panel. We have a very distinguished 
panel, as has been said. First, I'll just introduce all of 
them, and we'll just go from left to right.
    Billie Jean King. Ms. King, one of the all-time great 
professional tennis players, has won 71 singles, 21 doubles 
titles, including a record 20 Wimbledon titles. She achieved 
the world's highest ranking five times between 1966 and 1972 
and held a place in the top 10 for a total of 17 years.
    She also has a history of promoting social change and 
equality for women. She founded the Women's Tennis Association, 
the Women's Sports Foundation, the Women's Sports Magazine, and 
co-founded Grand Slam, an environmental initiative for the 
sports industry. In August 2009, another first, Ms. King was 
awarded the Presidential Medal of Freedom, the Nation's highest 
civilian honor. Ms. King was the first female athlete to be 
honored with the Medal of Freedom and was presented the award 
by President Obama at the White House.
    Next, we'll hear from Professor Nancy Hogshead-Makar, who 
is a three-time Olympic gold medalist in swimming, Professor of 
Law at Florida Coastal School of Law, and the senior director 
of advocacy at the Women's Sports Foundation. Professor 
Hogshead-Makar has testified before Congress numerous times on 
the topic of gender equity in athletics and is co-chair of the 
American Bar Association, Committee on the Rights of Women.
    She has received much recognition and many awards for her 
commitment to athletics, including being listed by Sports 
Illustrated magazine in 2007 as one of the most influential 
people in the 35-year history of title IX, and was awarded the 
title IX Advocate Award from the Alliance of Women Coaches in 
2012.
    We're also joined by Dr. Mae Carol Jemison, a chemical 
engineer, physician, scientist, teacher, and astronaut. She was 
the first African-American woman to travel in space when she 
went into orbit aboard the space shuttle Endeavor in September 
1992. In 1993, Dr. Jemison founded her own company, the Jemison 
Group, that researches, markets, and develops science and 
technology for daily life.
    She has also appeared on a variety of TV shows, including 
``Star Trek: The Next Generation,'' something that I like. She 
holds nine honorary doctorates and in 2004 was inducted into 
the International Space Hall of Fame.
    Our final witness is Rear Admiral Sandra L. Stosz, the 
Superintendent of the U.S. Coast Guard Academy in New London, 
CT. She previously served as the director of reserve and 
leadership at Coast Guard Headquarters here in DC, where she 
was responsible for developing policies to recruit, train, and 
support approximately 8,100 Coast Guard Reservists. Rear 
Admiral Stosz's personal awards include three Legion of Merit 
medals, four Meritorious Service medals, two Coast Guard 
Commendation medals, and two Coast Guard Achievement medals.
    Again, we thank all of you for being here today, and for 
your lifetime of advocacy and work. Your statements will all be 
made a part of the record in their entirety. We'll go from left 
to right. If you can sum up in 5 or 6 minutes or so, then we 
can get into discussion.
    Ms. King, we'll start with you. Welcome and please proceed.

   STATEMENT OF BILLIE JEAN KING, FORMER PROFESSIONAL TENNIS 
                      PLAYER, NEW YORK, NY

    Ms. King. I want to thank you, Chairman Harkin, Ranking 
Member Enzi, Senator Mikulski, and distinguished Senators that 
are also here. It's a privilege to be here with Nancy Hogshead-
Makar, Dr. Jemison, and Rear Admiral Stosz. It's such an honor.
    It's a privilege to testify before you this morning as we 
celebrate the 40th anniversary of title IX. Title IX is one of 
the most important pieces of legislation of the 20th century, 
and the 37 words which comprise the language of the amendment 
have proven powerful enough to change our society and provide 
opportunities in the classroom and on the athletic stage for 
countless young men and women.
    I'm a pre-title IX student athlete. When I attended 
California State College at Los Angeles in the 1960s, we were 
still a full decade away from the enactment of title IX. 
Financial assistance was available for all the athletes and for 
the tennis players, but only for the men athletes and tennis 
players.
    Two of the top men's tennis players of the time were 
attending college down the road from me. Stan Smith was on a 
full ride at USC and Arthur Ashe had a full scholarship at 
UCLA.
    Even though I was arguably the best tennis player at Cal 
State LA and had already won a Wimbledon title, I was not 
receiving any financial assistance. I did have two jobs, one of 
which was handing out gym equipment in the locker room, and I 
thought I was living large. But men and women did not have 
equal opportunities.
    I am very thankful to the people who made title IX 
possible. They are my sheroes and my heroes. The efforts of 
Congresswoman Edith Green, known as Mrs. Education, and Senator 
Birch Bayh, who presented title IX to the Senate, Congresswoman 
Patsy Mink, Senator Ted Stevens, and Dr. Bernice Sandler and 
many others paved the way for us to right this wrong when title 
IX was signed into law by President Richard Nixon on June 23, 
1972.
    So often people think title IX is just about sports and 
athletics, and that is because athletes are so visible. But the 
amendment is about education and equal rights. Just a little 
more than 1 year after the passage of title IX, I played Bobby 
Riggs in a much heralded match at the Astrodome in Houston, TX. 
This event, which was called the Battle of the Sexes, may have 
been a tennis match, but, to me, it was about social change.
    I wanted King/Riggs to change the hearts and minds of 
people to more closely align with the legislation of title IX. 
I was afraid if I did not win we would give people a reason to 
weaken title IX. It was definitely a pressure-packed moment and 
crystalized my belief that pressure is a privilege.
    Let's take a moment to look at the progress we have made in 
the last 40 years. Since the passage of title IX, girls' 
participation in varsity sports has gone from 1 in 27 to 2 in 5 
at the high school level. In women's collegiate programs, the 
increase is more than 500 percent.
    Tremendous progress has been made since 1972. And the 
Women's Sports Foundation, an organization I founded in 1974, 
has been the Guardian Angel of this legislation. All of us at 
the Women's Sports Foundation care so deeply about title IX and 
the protection of the legislation because of the tremendous 
benefit it brings to education and sports, specifically in 
terms of impact on health, emotional, and academic growth of 
our young people.
    We know we must remain committed to keeping girls in the 
game. Today, there are 1.3 million fewer opportunities for 
girls than boys at the high school level. It's pretty simple to 
me. Girls or boys can't play if they don't have the 
opportunity. We must remain committed to providing access to 
sporting and athletic activities for all of our children.
    At its very core, title IX is truly about the issues this 
committee deals with every day--health, education, labor, and 
the future of this Nation. It's about health and getting our 
children active and committed to reversing the obesity trend 
and pass boot camp. It's about education, because children who 
participate in sports and physical activity perform better 
academically.
    It's about our workplace, because we know that boys and 
girls who are active and participate in sports develop 
confidence and leadership skills which will help them succeed 
in life. It's about our future and getting more girls and boys 
to participate, benefit, and succeed. The health of our Nation 
is depending on us to do the right thing.
    I'd just like to take a moment--as you know, Senator Birch 
Bayh was instrumental in writing and championing title IX. 
Wherever the statute has been challenged, Senator Bayh has 
continued to champion its intent to ensure that both girls and 
boys could look forward to the benefits of education. In 1971, 
he wrote title IX, just one sentence, and in his honor, I would 
like to submit to the committee for public record Senator 
Bayh's own words of how important he knew title IX was when he 
wrote those 37 words in 1971, because it's just as important 
now.
    Senator Bayh was inspired by his late wife, Marvella, who 
educated him about discrimination against women in higher 
education after her experience of being told by the University 
of Virginia that women need not apply. And he was inspired by 
his father, Birch Bayh, Sr., Superintendent of Physical 
Education for the DC school system for 30 years.
    One morning in 1940, at the family breakfast table, Birch 
Bayh, Sr., told his daughter and son that he was going to be 
testifying before Congress that day. ``What are you going to 
tell them, Daddy?'' his kids asked. He said, ``I'm going to 
tell them that little girls need strong bodies to carry their 
minds around, just like little boys.''
    Thank you for your time and thank you for your dedication 
to the celebration of title IX.
    [The prepared statement of Ms. King follows:]
                 Prepared Statement of Billie Jean King
    Thank you Chairman Harkin, Ranking Member Enzi and distinguished 
Senators.
    It is an honor and a privilege to testify before you this morning 
as we celebrate the 40th anniversary of title IX.
    Title IX is one of the most important pieces of legislation of the 
20th century and the 37 words which comprise the language of amendment 
have proven powerful enough to change our society and provide 
opportunities in the classroom and on the athletic stage for countless 
young men and women.
    I'm a pre-title IX student athlete.
    In high school I attended Long Beach Poly in Long Beach, CA--a 
school which is well known as a sports powerhouse. But when I attended 
in the late 1950s and early 1960s, only the boys' teams played 
competitive sports against other schools in California. The girls never 
traveled to compete against other schools. We were only allowed to 
compete against our fellow students at Poly.
    When I attended California State College at Los Angeles in the 
1960s we were still a full decade away from the enactment of title IX. 
Financial assistance was available for tennis players . . . but only 
available to the men players.
    Two of the top men's tennis players of the time were attending 
college down the road from me. Stan Smith was on a full ride at USC and 
Arthur Ashe had a full scholarship at UCLA.
    We did things differently at our school. Scotty Deeds, the coach of 
the men's tennis team and Dr. Joan Johnson, the coach of the women's 
team felt our tennis program would be stronger if the men and the women 
practiced together.
    Even though I was arguably the best tennis player at Cal State LA 
and had already won a Wimbledon title, I was not receiving any athletic 
scholarship funds. I did have two jobs on campus--one of which was 
handing out gym equipment in the locker room--and I will tell you I 
thought I was living large.
    But I knew things just were not right. Things were not equal.
    Thanks to the heroic and committed efforts of Senator Birch Bayh, 
Senator Ted Stevens, Congresswoman Edith Green, Congresswoman Patsy 
Mink and countless others, we righted this wrong when President Richard 
Nixon signed title IX into law on June 23, 1972.
    So often people think title IX is just about sports. The amendment 
is primarily about education and completely about equal rights. But, so 
often people think the amendment is about sports. Why do they think 
that--because athletes are so visible.
    Just a little more than 1 year after the passage of title IX, I 
played Bobby Riggs in a much heralded match in Houston, TX. This 
event--which was dubbed the ``Battle of the Sexes''--was a tennis match 
only on the outside. In reality, it was much more about social change 
than tennis.
    I wanted the King/Riggs match to change the hearts and minds of 
people to more closely align with the legislation of title IX. I was 
scared and I was afraid if I did not win we would give people a reason 
to weaken title IX. It was definitely a pressure-packed moment and so 
many people were counting on me to win.
    Sometimes you have to ``see it to be it.'' King/Riggs was one of 
those times. I felt I could be an example to show women what we could 
do if we just had the opportunity to do.
    I learned from the King/Riggs match that title IX is so important 
that we must always keep moving forward and we cannot allow ourselves 
to go backwards.
    Let's take a moment to look at the progress we have made in the 
last 40 years.
    Since the passage of title IX girls' participation in sports has 
gone from 1 in 27 to 2 in 5 at the high school level.
    Tremendous progress has been made and the Women's Sports 
Foundation, an organization I founded in 1974, has been the ``Guardian 
Angel'' of this legislation.
    Girls and women were underserved at that time and it was important 
to galvanize resources to address the inequities--to enable them to 
achieve their potential in academics, in athletics, in life. The 
Women's Sports Foundation exists to advance the lives of girls and 
women through sports and physical activity. Today the Women's Sports 
Foundation has leveraged its leadership in advocacy to become a 
recognized research organization, a respected program provider in 
underserved communities, and a champion for sports and physical 
activity as a necessary opportunity for all girls and women to be 
healthy, confident, strong, and successful.
    All of us at the Women's Sports Foundation care so deeply about 
title IX and the protection of the legislation because of the 
tremendous benefit it brings to education and sports, specifically in 
terms of its impact on the health, emotional and academic growth of our 
young people.
    We also have learned we must remain committed to keeping girls in 
the game.
    Also in 1974 I co-founded World TeamTennis, a groundbreaking co-ed 
professional tennis league.
    If you have ever seen a WTT match, you have seen my philosophy of 
life in action. We have men and women competing on the same team, on a 
level playing field with equal contributions from both genders. We feel 
it is important for the players to experience both a leadership and a 
supporting role.
    More than 25 years of research from the Women's Sports Foundation 
shows us that by age 14 girls drop out of sports at twice the rate of 
boys, for many reasons including:

    <bullet> Lack of access. Girls have 1.3 million fewer opportunities 
to play high school sports than boys have. Lack of physical education 
in schools and limited opportunities to play sports in both high school 
and college mean girls have to look elsewhere for sports--which may not 
exist or may cost more money. Often there is an additional lack of 
access to adequate playing facilities near their homes that makes it 
more difficult for girls to engage in sports.
    <bullet> Safety and transportation issues. Sports require a place 
to participate--and for many girls, especially in dense urban 
environments, that means traveling to facilities through unsafe 
neighborhoods or lacking any means to get to a good facility miles 
away. And if there isn't a safe option like carpooling with other 
families, the only option for a girl and her family may be to stay 
home.
    <bullet> Cultural barriers. It's true that in some homes, girls 
have responsibilities that boys simply don't have, like taking care of 
younger siblings or older family members. These commitments often take 
precedence over extracurricular activities including sports. And in 
some cultures, adults may promote or allow boys to participate but 
limit girls' participation.
    <bullet> Decreased quality of experience. As girls grow up, the 
quality level of their sports experience may decline. The facilities 
are not as good as the boys' venues and the playing times may not be 
optimal. The availability of quality, trained coaches may be lacking in 
their community or these coaches may be more focused on the boys' 
programs that have more money for training. Equipment, and even 
uniforms aren't funded for many girls' programs at the same levels as 
boys so their ability to grow and enjoy the sport is diminished. In 
short, sports just aren't ``fun'' any more.
    <bullet> Cost. School sports budgets are being slashed every day, 
all across the country. Fewer opportunities within schools mean 
families must pay to play in private programs while also footing the 
bill for expensive coaches, equipment and out-of-pocket travel 
requirements. This additional expense is just not possible for many 
families.
    <bullet> Lack of positive role models. Girls are bombarded with 
images of external beauty, not those of confident, strong female 
athletic role models. To some girls, fitting within the mold that they 
are constantly told to stay in is more important than standing out. 
Peer pressure can be hard for girls at any age; when that pressure 
isn't offset with strong encouragement to participate in sports and 
healthy physical activity, the results may lead girls to drop out 
altogether (see www.womenssports
foundation.org for more information).

    It's pretty simple to me. Girls or boys can't play if they don't 
have an opportunity to play.
    I feel it is important we continue those traditions today. We must 
remain committed to providing access to sporting and athletic 
activities for all of our children.
    At its very core, title IX is truly about the issues this committee 
deals with every day--Health, Education, Labor and the future of this 
Nation.
    It's about health--and getting our children active and committed to 
reversing the obesity trend.
    It's about education--because children who participate in sports 
and physical activity in school perform better academically.
    It's about our workforce--because we know that boys and girls who 
are active and participate in sports develop confidence and leadership 
skills which will help them succeed in life.
    It's about our future . . . and getting more girls and boys to 
participate, benefit and succeed.
    The health of our Nation is depending on us to do the right thing.

    The Chairman. Thank you, Ms. King. Thank you for that 
little history lesson. I did not know that. That's very 
interesting--1940.
    Ms. King. Yes.
    The Chairman. That is pretty impressive.
    Senator Mikulski. And thank you for reminding us about 
Senator Ted Stevens. I think that's an important note, because 
our experience has always been that Senator Stevens was a great 
champion for women.
    Ms. King. Yes, he was.
    Senator Mikulski. It's often not acknowledged as it should 
be. Thanks for reminding us.
    The Chairman. Thank you.
    Dr. Hogshead-Makar, please proceed.

STATEMENT OF NANCY HOGSHEAD-MAKAR, J.D., OLYMPIC SWIMMING GOLD 
  MEDALIST, PROFESSOR OF LAW, FLORIDA COASTAL SCHOOL OF LAW, 
                        JACKSONVILLE, FL

    Ms. Hogshead-Makar. Thank you, Chairman Harkin and Ranking 
Member Enzi and Senator Mikulski and distinguished Senators 
here.
    Title IX of the Education Amendments of 1972 expresses the 
Nation's collective aspirational belief that girls and boys, 
men and women, deserve equal educational experiences and 
opportunities. Today's world is almost unrecognizable through 
the 1972 lens, except for perhaps trailblazers like Billie Jean 
King.
    I speak with three voices today, one as a female athlete 
who is a direct beneficiary of title IX, also as a lawyer and a 
professor of law and the senior director of advocacy for the 
Women's Sports Foundation, and also as a parent of both a son 
and twin daughters. To this day, I am so proud of being able to 
represent my country in the 1984 Olympics. And I'm also so 
proud of earning a full scholarship. And make no mistake--I 
earned it, getting up at 4:45 in the morning from seventh grade 
until I graduated from high school.
    But neither one of those things would have been possible 
without this statute. And if you ever doubt for a second 
whether or not the work that you do impacts people, look at my 
life and look at the lives of millions of girls and women who 
have been able to not only have a sports experience but be able 
to access education broadly.
    As a lawyer and a professor, I can tell you that right now, 
title IX has been challenged in every way imaginable, through 
the courts, through this legislative body. Title IX actually 
had to be passed twice, both in 1984 and again in 1987 with the 
Civil Rights Restoration Act. The lawsuits and the challenges 
have gone on, and I'm hoping that with this celebration of the 
40th anniversary that those are going to be over and that we 
can move on now to figure out how to fully implement the law.
    Unlike critics' claims, title IX is overwhelmingly 
supported by public opinion. I'm aware of three major polls 
between 2000 and 2001 that tell a very consistent story. 
Approximately 80 percent of men, women, Democrats, Republicans, 
Independents, young, old, with kids, without kids are all very 
supportive of title IX.
    A hundred years ago, this country did something unique that 
the rest of the world did not do, which is we linked education 
with athletics to make better men, to make better citizens. And 
it turns out that the intuitive belief turned out to be true, 
and we now have a lot of academic research. The Women's Sports 
Foundation has a great publication that combines about 2,500 
different independent academic and peer-reviewed research 
studies that looks at what is the effect of a sports experience 
on a girl's life, from pregnancy to academics to osteoporosis 
to breast cancer to behaviors like cutting and binge drinking 
and you name it.
    And what we know is that a sports experience is one of the 
most important things a girl can have in terms of her lifelong 
health, her educational pursuits, and her economic productivity 
in the country. Sports has now done its job in terms of showing 
that there is a good reason why we spend our tax dollars on 
athletics. We know that athletics alone uniquely benefit kids, 
both boys and girls, who play those sports.
    There are other areas that title IX applies to, it's not 
just athletics. Let me touch on two of them. One is pregnancy, 
and the other one is sexual harassment and assault. Title IX 
applies to both of those. They're both prohibited under title 
IX. We've seen a lot of changes in those areas since title IX 
was passed.
    Sexual harassment, in particular, is a big problem. More 
than half of all girls and 40 percent of boys in grades 7 
through 12 report being sexually harassed. Nearly two-thirds of 
college students found some form of sexual harassment, and 
among gay, lesbian, bisexual, and transgendered students, or 
LGBT students, harassment is even more prevalent. Eighty-five 
percent report being verbally harassed, and 19 percent report 
being physically attacked.
    I could go on about the different areas that apply to title 
IX. But as a parent, I want to say that I'm disturbed right now 
at how title IX is used to be some technical compliance or 
blamed for why they have to tell the boys no.
    Let me give you an example. My son is 11, and my twin girls 
are 5 years old. When they were born, his lifestyle absolutely 
went down, particularly as it related to how much time he could 
spend with us. But he wasn't being discriminated against. He 
had to share family resources now with a larger pool of people.
    Right now, the number of boys and girls that are knocking 
at the door, saying, ``We want to play. We want more math 
programs. We want more STEM programs''--the number of kids that 
are knocking at the door far exceeds schools' ability to be 
able to comply. But when they tell the boys no, it's almost 
always because of title IX or because of the girls. I think 
this is an unethical way that we talk about this.
    Also, as a parent, I'm very concerned that girls lag behind 
men in every measurable criteria, whether it's participation 
opportunities or recruiting or how they get treated or their 
facilities and locker rooms and their equipment--every way 
possible. Because sports are one of the only sex segregated 
areas in all of education--probably athletics and bathrooms are 
sex segregated--it doesn't just send a powerful message to 
those athletes that are in that softball program that isn't 
getting the same facilities. It sends a message out there to 
the math program and to the student body generally and, indeed, 
to our entire public that can see that in the one place that we 
sex segregate, we treat girls much, much less. It's 
hypocritical of adults to then go try to tell kids, ``Hey, you 
should respect women,'' when it's clear that the school is 
engaging in formal discrimination in itself.
    Looking forward, at the Women's Sports Foundation, we are 
busy answering about 40 calls a month. Many are families trying 
to get equitable treatment for their daughters. We have to 
empower them to help schools overcome the stubborn gender 
inequities without litigation. Right now, we know that however 
you slice up the pie, whether or not you're looking at the 
resources that the school has, the different regions in the 
country, whether you're looking at it by State, whether it's by 
urban, rural, suburban, or town, girls get less.
    Girls in Maine have twice the sports experiences that boys 
in Florida do. So how much sports kids want--a lot of it has to 
do with what's offered, what's provided there. We have these 
stubborn--it doesn't matter how you slice the pie, girls are 
getting less. We at the Foundation are trying to do something 
about it, but without litigation.
    Litigation in athletics cases is not the answer. The case 
law is very clear now. We've had tons of litigation, and it's 
not economically smart to do. And, instead, we need to have the 
Department of Education, through the Office of Civil Rights, to 
commit to compliance reviews that are on a region or a State 
level, rather than what is affectionately termed as the whack-
a-mole routine, which is getting one school at a time. It needs 
to be a bigger regional area.
    The Department of Education has to make information more 
easily available to high school students so that they know 
whether or not it's fair to go and ask for more resources. It's 
time to pass the High School Sports Data Transparency Act.
    And, finally, all students should be protected from sexual 
harassment and bullying, including our LGBT students.
    Mr. Chairman, I want to thank you for this opportunity, and 
I look forward to hearing your questions.
    Thank you.
    [The prepared statement of Ms. Hogshead-Makar follows:]
            Prepared Statement of Nancy Hogshead-Makar, J.D.
    Mr. Chairman and members of the committee, thank you for providing 
me with the opportunity to testify today regarding Title IX of the 
Education Amendments of 1972, a landmark civil rights law passed 40 
years ago to eliminate sex discrimination in American education.
    Title IX of the Education Amendments of 1972 expresses our Nation's 
collective aspirational belief that girls and boys, women and men, 
deserve equality in educational experiences and opportunities. Our 
country has been shaped by principles of equality, tolerance, freedom 
and the rule of law. By contemporary standards, it seems peculiar that 
equality for males and females in federally supported education was 
ever considered to be a radical idea. Yet here we are, in a world 
almost unrecognizable through 1972 lens, except for the trailblazers 
like Billie Jean King.
    Title IX applies to every aspect of federally funded education 
programs, including access to higher education, athletics, career 
education, pregnant and parenting students, employment, science 
technology, engineering and math (STEM) classrooms and sexual 
harassment and assault, to name a few. Women now make up more than 50 
percent of college graduates. In 1972, women earned about 7 percent of 
law degrees. In 2011, women earned about 50 percent of medical and law 
degrees.
    Other than the constitutional right to vote, possibly no other 
piece of legislation has had a greater effect on women's lives than 
title IX. Education has been this country's ticket to improve income 
potential and social class mobility. When women were formally excluded 
or limited in higher education opportunities, it prevented them from 
advancing themselves economically and socially. Title IX is cracking 
the barriers to women's ability to have equal opportunity to pursue 
education.
    During my testimony today I speak with three voices: one as a 
female athlete who was a direct beneficiary of title IX; as a lawyer 
and professor of law in the field, and as a parent of a son and twin 
daughters.
    To this day, I'm most proud of representing my country as part of 
the 1984 Olympic Team, and of earning a full athletic scholarship to 
Duke University. If I had been a few years older, world records, 
swimming 4 hours a day, lifting weights and running, for 50 weeks a 
year would not have been enough to earn an athletic scholarship, and my 
career would have been truncated by 4 years, ending after the 1980 
boycott of the Olympics.
    If you ever question whether your public service in passing a law 
makes a difference in the individual lives of citizens, look no further 
than the impact title IX has had on my life.
    As a lawyer and professor of law, and as a long-time advocate for 
women in sports, I have been in the trenches defending the law from 
numerous attacks from all three branches of government. Today, 40 years 
after the passage of title IX, the challenges have made the law 
stronger. The legislature has passed title IX twice, in 1972 and again 
in 1987 with the Civil Rights Restoration Act, affirming the bedrock 
principles of equality in education. Case law and the administrative 
regulations interpreting the law are uniquely consistent throughout the 
country.
    Title IX is overwhelmingly supported by public opinion. I'm aware 
of three major polls between 2000 and 2011\1\ that tell a consistent 
story of the public approval of title IX. Approximately 80 percent of 
men, women, Democrats, Republicans, Independents, and people with and 
without children all support title IX. Unlike the law's critics claim 
that the law is ``controversial,'' title IX has stood the test of time 
and is widely embraced.
---------------------------------------------------------------------------
    \1\ NBC--Wall Street Journal, 2000; Mellman Poll, 2007, available 
at: www.fairplaynow.org/TitleIXpollresults.pdf; New York Times/CBS News 
Poll: Title IX, 2011. http://www.nytimes.
com/interactive/2011/04/26/sports/26-poll-titleIX.html.
---------------------------------------------------------------------------
    In addition, concerns that girls and women's gains would come at 
the expense of boys and men has not materialized. The slide below 
demonstrates three major points. First, the gap between male and female 
sports participation rate is enormous. Girls in high school are 
provided with 1,300,000 fewer sports opportunities than boys. Second, 
at no point in the history of the law do the two lines curve together. 
In other words, female gains have not come at the expense of males. 
Instead, when girls' sports are increasing, boys are also gaining. And 
finally, since 2000, while overall sports for boys and girls are 
growing, the gaps between males and females have actually grown.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The slide below tells much the same story for NCAA collegiate 
athletics. There are still significant gaps, the lines never curve 
together, and since 2000 the gaps differences between men and women 
have actually grown.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To compare high school and college sports participation in a 
snapshot, see the graphs below that highlight the widening pace of male 
sports growth.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   lessons from title ix in athletics
    Title IX has given scholars an opportunity to study the effect of 
athletics on the lives of children. The girls following the passage of 
the law make an ideal research group, because of the lack of 
opportunities followed by significant participation. A large body of 
research confirms what we initiatively knew: that--despite the ``dumb 
jock'' myth--interscholastic sports participation provides boys and 
girls from diverse socioeconomic, racial, and ethnic backgrounds 
measurable positive educational impacts, including higher educational 
aspirations in their senior year, improved school attendance, increased 
math and science enrollment, more time spent on homework, and higher 
enrollment in honors courses.\2\ A sports experience provides a 
positive health trajectory for girls, including reducing the risk for 
obesity, heart disease, breast cancer, osteoporosis, tobacco and drug 
use, unwanted teen pregnancy, sexually transmitted diseases, 
depression, and suicide.\3\
---------------------------------------------------------------------------
    \2\ Ellen Staurowsky et al., Women's Sports Found., Her Life 
Depends On It II: Sport, Physical Activity, and the Health and Well-
Being of American Girls and Women 48 (2009). See id. at 13-15, 28, 32-
33, 37.) Available at: http://www.womenssportsfoundation.org/home/
research/articles-and-reports/mental-and-physical-health/her-life-
depends-on-it.
    \3\ Id.
---------------------------------------------------------------------------
    Similarly, research by Professor Betsey Stevenson from Wharton 
found that title IX was responsible for one-fifth of the rise of female 
educational attainment for the generation that followed the new policy, 
as well as a 10 percent increase in women working full-time and a 12 
percent spike in women in traditionally male-dominated occupations, 
such as accounting, law and veterinary medicine. While her research 
focused on girls, there is no reason to think that these benefits would 
not be just as applicable for boys. In short, sports are an excellent 
investment in our public tax dollars, making both boys and girls 
healthier and more productive members of society.
    Despite this body of research, schools that are dropping sports 
altogether are increasing.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This strong connection between athletics and academic engagement, 
workforce participation, obesity and pregnancy prevention is not 
trickling down as it should.
                    pregnancy and parenting students
    Pregnancy and parenting are significant barriers to education for 
both males and females. The title IX regulations set forth a general 
ban on pregnancy discrimination, stating that schools must treat 
pregnancy and all related conditions in the same way they treat any 
other temporary disability.\4\ In other words, pregnant students are to 
be treated the same as students with a knee injury or mononucleosis. In 
addition, the regulations provide special protection for pregnant 
students by requiring an institution to provide them with necessary 
medical leave, and to reinstate them to the same status as they held 
when the leave began, even if the school does not have a leave policy 
or if the students do not qualify under its policy.\5\ In this way, 
title IX's protections for pregnancy are similar to those barring 
pregnancy discrimination in the workplace.\6\ While employees have a 
general expectation that they will not be forced to stop working 
arbitrarily, they will not lose their jobs due to pregnancy, and they 
will be able to return to work when it is medically safe to do so.\7\ 
Because of title IX, students should have the same expectations 
regarding their educational pursuits.
---------------------------------------------------------------------------
    \4\ 34 CFR 106.40(b)(4). Throughout this memo, the term 
``pregnancy'' encompasses ``pregnancy, childbirth, false pregnancy, 
termination of pregnancy or recovery therefrom,'' as set forth in the 
regulations.
    \5\ 34 CFR 106.40(b)(5); see also, Deborah L. Brake, The Invisible 
Pregnant Athlete and the Promise of Title IX, 31 Harv. J.L. & Gender 
323 (Summer 2008), available at: http://www.law.harvard.edu/students/
orgs/jlg/vol312/323-366.pdf.
    \6\ The Pregnancy Discrimination Act of 1978, (``PDA'') (P.L. 95-
555, 92 Stat. 2076) amended Title VII of the Civil Rights Act of 1964, 
which bars employment discrimination, to make it clear that 
discrimination on the basis of sex includes discrimination on the basis 
of pregnancy. The PDA was passed to reverse the Supreme Court's 
decision in General Electric Company v. Gilbert. 429 U.S. 125 (1976), 
which had reached the opposite conclusion. Title IX actually created 
stronger protections for students than title VII does for employees 
because of its absolute guarantee of a medical leave and reinstatement 
right to the same status. 34 CFR 106.40(b)(5).
    \7\ Cleveland Board of Education v. LaFleur, 414 U.S. 632 (1974) 
(school district policies that forced pregnant teachers to leave work 
early in their pregnancies, regardless of whether or not they were able 
to work, and permitted them to return only 3 months after childbirth, 
were unconstitutional.) [The title IX regulations are actually stronger 
than the PDA because of their absolute guarantee of a medical leave and 
right to reinstatement to the same status. 34 CFR 106.40(b)(5)].
---------------------------------------------------------------------------
    Athletics remains an excellent tool for preventing pregnancy. While 
there are some signs of improvement in graduation rates for pregnant 
and parenting students,\8\ the problems lie with enforcement and an 
unsophisticated, vulnerable group that may not know of these 
protections for them.
---------------------------------------------------------------------------
    \8\ The Pregnant and Parenting Students Access to Education Act, 
introduced in the House of Representatives in July 2011, authorizes the 
U.S. Secretary of Education to make State and local grants to promote 
education for pregnant and parenting students. Also, the Pregnancy 
Assistance Fund, a component of the Affordable Care Act, provides $25 
million annually for fiscal years 2010 through 2019 for the purpose of 
awarding competitive grants to States and Native American tribes or 
reservations. The law provides for up to 25 grants of $500,000 to $2 
million a year. See, NCWGE, ``Working to Ensure Gender Equity in 
Education'' 2012. Available at: http://ncwge.org/.
---------------------------------------------------------------------------
                     sexual harassment and assault
    Sexual harassment affects student's ability to succeed 
academically. More than half of girls and 40 percent of boys in grades 
7 through 12 reported being sexually harassed during the 2010-11 school 
year. Nearly two-thirds of college students aged 18-24 experience some 
form of sexual harassment. The numbers for men and women are similar, 
although women report greater emotional and educational disruption from 
harassment. Among lesbian, gay, bisexual and transgender students 
(LGBT) harassment is even more prevalent; 85 percent report being 
verbally harassed and 19 percent report being physically attacked. In 
addition, being called gay or lesbian in a negative way is a common 
form of harassment in middle and high schools.\9\
---------------------------------------------------------------------------
    \9\ See NCWGE, ``Working to Ensure Gender Equity in Education'' 
2012. Available at: http://ncwge.org/.
---------------------------------------------------------------------------
    Sexual harassment is another form of sex discrimination and is 
prohibited by title IX. Schools must prevent the harassment, remediate 
it and prevent its recurrence.\10\ The permissive culture of academics 
and athletics in particular have not protected students from sexual 
harassment in the way employees are protected from similar conduct. The 
boundaries of workplace harassment has normalized the impermissibility 
of quid-pro-quo sexual harassment and hostile environment harassment, 
but many still view sexual and romantic relationships as permissible, 
so long as both parties are above the legal age of consent, and there 
is no overt coercion. In recognition of this permissible culture, many 
educational and sporting organizations have developed ethical policies 
that explicitly prohibit romantic and sexual relationships between 
professor and student, coaches and athletes, regardless of the age of 
the victim or whether there is consent.\11\ In other professional 
settings, like attorneys and clients, physicians and patients, clergy 
and parishioners that are marked by an imbalance in power and a duty of 
care, the ethical standards governing professors and coaches should be 
designed to safeguard the well-being of persons for whom they are 
responsible, rather than for the benefit of those in power.
---------------------------------------------------------------------------
    \10\ Title IX of the Education Amendments of 1972, 20 U.S.C. 
1681-88, and 28 CFR 54.135(b) (requiring schools to ``adopt and 
publish'' policies and procedures ``providing for prompt and equitable 
resolution'' of student complaints).
    \11\ Deborah Brake and Mariah Burton Nelson, ``NCAA; Staying in 
Bounds: A Model Policy to Prevent Inappropriate Relationships Between 
Student-Athletes and Athletic Department Personnel'' (2012); 
``Recognizing, Reducing and Responding to Misconduct in Sport: Creating 
Your Strategy'' USOC, 2012. Available at: http://pressbox.teamusa.org/
Article%20Documents/USOC-Safe-Sport-Handbook6289729f-d229-47be-a627-
1390d20a6ced.pdf. See also, Safe4athletes, an organization dedicated to 
preventing athlete abuse in all its forms, particularly in club sports. 
www.safe4athletes.org.
---------------------------------------------------------------------------
    Again, the problem lies in enforcement, and an unsophisticated, 
vulnerable group that may not know of these protections for them.
    Finally, I speak as a parent of three young children and it 
disturbs me how gender equity is communicated. For example, our son was 
born 5 years ahead of our daughters. When they were born, his standard 
of living declined, particularly the standard of time that we were 
previously able to devote to him. Rather than being discriminated 
against, he had to share family resources with a larger group. 
Conversely, it would not be fair or equitable to deny our daughters 
educational opportunities just because our son was born first.
    I could easily make my son resent his sisters if, when he asked for 
more than our family resources can accommodate, I said, ``you deserve 
it, but because of the law, you cannot have it. Sorry, it isn't my 
fault.'' Yet schools regularly blame the law when denying a male 
group's request for resources. Title IX is invoked as an excuse for an 
administrator's decision to allocate resources fairly.
    I am also concerned about the inequitable resources and 
opportunities for all my children. When boys experience more and better 
funded sports, it's hypocritical for adults to then tell males that 
they should respect females. Males are being taught that they are more 
important. Because sports are one of the rare areas in education that 
are sex-segregated, how adults value girls' and women's sports speaks 
louder than any lesson. When children see flagrant disparities in 
resources and attention between the boys' and girls' sports 
programming, the school sends a visible message to everyone, on-campus 
and off-campus, that formal discrimination is acceptable.
    Just a short while ago, girls heard that professions like science 
and the law were for our boys, yet today women account for 50 percent 
of medical school students and law school students. The stereotype that 
boys are innately better than girls at math and science is also 
widespread. But recent trends in achievement and scientific studies 
demonstrate that this notion is simply incorrect. Scientific research 
has not demonstrated that innate differences exist between boys and 
girls in terms of mathematical or scientific abilities.\12\ Spatial 
reasoning abilities and math performance are not biologically 
``programmed'' by gender. In fields like biology, psychology, and 
chemistry, girls now make up close to, or more than, half of those 
receiving bachelors or postgraduate degrees. However, participation 
rates of women in technical fields, particularly engineering and 
computer science, are still very low.\13\ To accept the notion that 
women are less interested in sports or science or technology than men 
would simply maintain existing discrimination and curtail opportunities 
at artificially limited levels.
---------------------------------------------------------------------------
    \12\ See, NCWGE, ``Working to Ensure Gender Equity in Education'' 
2012. Available at: http://ncwge.org/.
    \13\ Id.
---------------------------------------------------------------------------
    Many vocational degrees still remain divided by gender. For 
example, programs in cosmetology, child care, and health services have 
large majorities of female students, while programs in fields like auto 
mechanics and construction remain high in male enrollment. Women in the 
highest-paying sector of women-dominated fields make less than men in 
the lowest-paying sector.
    In athletics, the stereotyped notion that girls are less interested 
in sports translates into fewer opportunities in every type of school, 
in wealthier schools and schools serving a higher percentage of 
students receiving federally subsidized lunches, as the two tables 
demonstrate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Put another way, interest in athletics, for both boys and girls, is 
dictated by opportunities that our schools provide to participate in 
athletics. At the Women's Sports Foundation, we know that kids will 
participate in sports if they are offered. As the chart below 
demonstrates, high school girls in Iowa and Maine have twice as many 
sports opportunities as boys in Arkansas, Arizona, Utah, Florida and 
DC. It is not that boys in these states are uninterested in sports; it 
is that they do not have the opportunity provided to them. This 
comports with most people's experience. Ask just about anyone why they 
became interested in their career or a hobby, and they'll tell you they 
were given an opportunity to try it and it stuck with them.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While fewer than 30,000 women participated in college sports before 
title IX, today that number is almost 200,000--over six times the pre-
title IX rate. Girls in high school now are participating at a rate of 
3.1 million per year--a 1,000 percent increase from pre-title IX 
participation rates.
    Demand for sports participation by both boys and girls far exceed 
our schools' resources. There are more than 6 million boys and girls 
playing high school sports today who are vying for fewer than 450,000 
college athletic participation slots. With 3.1 million girls playing 
high school sports, it is inconceivable that schools cannot find women 
to play on the teams they create.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although athletic gains have been sweeping, women continue to lag 
behind men by every measurable criterion, including participation 
opportunities, scholarships, budgets, facilities, and recruiting. As a 
parent, I am concerned about the overt messages these discrepancies 
send to both my son and my daughters.
                               conclusion
    Mr. Chairman, we have many reasons to celebrate this 40th 
Anniversary of title IX. It is enabling girls and women access to 
education, and is a tool to make the educational experience more 
valuable, by addressing pregnancy and parenting students and sexual 
harassment and assault.
    While the statute, case law and regulations interpreting title IX 
may seem daunting, they all arise from the simple principle that is 
relevant to every question raised today: whether girls and boys, men 
and women, are receiving equal educational opportunities.
    As it relates to athletics the NCAA put it this way when it adopted 
Operating Principle 3.1:

          ``An athletics program can be considered gender equitable 
        when the participants in both the men's and the women's 
        programs would accept as fair and equitable the overall program 
        of the other gender.''

    It is imperative that we continue to work together around the 
shared goals embodied in title IX to ensure that our daughters and our 
sons will have as many educational opportunities, and as meaningful 
opportunities open to them in the future.
    Thank you.

    The Chairman. Great. Now we'll turn to Dr. Jemison. Please 
proceed.

  STATEMENT OF MAE CAROL JEMISON, M.D., PHYSICIAN AND RETIRED 
                  NASA ASTRONAUT, HOUSTON, TX

    Dr. Jemison. Chairman Harkin, Senator Enzi, Senator 
Mikulski, I really want to thank you for allowing me to testify 
today on the 40th anniversary of title IX.
    As we've heard from each person who has spoken before, this 
landmark legislation has really changed our lives here in the 
United States. And what I'm going to do, in addition to really 
thanking some of the people who have continued to make it 
happen--and, particularly, I just have to thank the American 
Association of University Women for bringing me here this week 
and making sure that this stays at the forefront.
    What I want to do is to just jump right into things and 
talk about something that was very important to me. It's how 
title IX has affected STEM programs, science, technology, 
engineering, and mathematics. And, also, I want to use that in 
a lens of the space program, as well as some of the other 
things that have happened over the past years.
    I was really honored to have the opportunity to be the 
first woman of color in the world to have flown in space aboard 
the space shuttle Endeavor, this mission between the United 
States and Japan. I met with really a strong responsibility to 
fly on behalf of those who came before me, who because of 
gender or race had been denied the opportunity that I now had. 
I was also aware that in many ways, I was making this flight on 
behalf of others who would come after me, others who with hard 
work and determination would be able to achieve their dreams 
without the barriers of prejudice and misrepresentation.
    I really imagine that Dr. Sally Ride, Dr. Kathryn Sullivan, 
Colonel Eileen Collins, Dr. Ellen Ochoa, who each shattered 
part of the space program barrier--I think they probably felt 
very much the way that I did, because, you see, Sally, Kathy, 
Eileen, and Ellen and I--we all grew up at a time when there 
were no women in the American space program.
    Even as a child, I was aware of this lack of inclusiveness. 
In the 1960s, on the south side of Chicago, I remember being so 
excited about space exploration. But there was always just one 
type of person in Earth orbit or in Mission Control, and they 
didn't look like me. And even though as a country, we would 
proudly rally and root for the space program, so many of us 
felt left out.
    When I finally did fly in space, the first thing I saw on 
Earth--no kidding--the first thing I saw on Earth from orbit 
was Chicago--no kidding, because I had been working on the mid-
deck, I was called up, and there it was. And it was such a 
magnificent moment. It was such a significant moment, because 
looking out the window of the shuttle, I thought about that 
little girl who grew up on the south side of Chicago, and I 
knew that she would have had a great big grin on her face. In 
this Nation right now, we accept women in space as routine. But 
that was not the way before title IX.
    I want to give you a short story about space exploration. 
In 1959, Brigadier General Donald Flickinger and Randy Lovelace 
decided that they wanted to test women for the astronaut 
program, because they said, actually, women have some 
engineering advantages, and I can talk about that later.
    But, basically, what they did--when they started testing 
these women, they had women pilots who had more flight time 
than a lot of the male astronauts, and they did incredibly on 
these tests, the exact same tests men had. The women--68 
percent of them passed with no medical reservations, compared 
to 56 percent of the men. And they were considered that they 
should be there. But in 1962, just even the testing of them 
stopped.
    When I'm talking today, this is not meant to be a story 
that's construed about who is better, men or women. It's really 
a story about how different the American space program would 
have been if title IX had been in effect in the 1950s. Indeed, 
it's a story about how different the course of American 
science, technology, engineering, medicine, environmental 
science, art, literature, sports--I could go on and on--how 
different they would have been if title IX had been in place.
    When we look at what's going on, I want to talk about the 
impact of title IX, because the impact is when we had a 
sanctioned lack of educational opportunities, it permeated 
everything. We would see that girls didn't have expectations 
that they would do better. They thought of themselves as only 
being able to be full-time wives, mothers, nurses, secretaries, 
and teachers. We never had people say men should be full-time 
fathers and husbands, but that's another question.
    What we have to do is we have to understand that title IX 
changed expectations that women had of themselves. Last year, 
just a few months ago, Bayer Corporation released a study 
called the Bayer Facts of Science 15. It was a survey of chairs 
of science, technology, engineering, and mathematics 
departments at the Nation's top 200 universities.
    What we saw from that was very surprising. What I take away 
from that is a story that says that a failure of university 
departments to understand their role in making sure that women 
succeed is important. By the chairs' own account, women 
students arrive at college the best prepared academically to 
succeed in STEM fields, yet they graduate in much fewer 
numbers, and people throw this away.
    Other studies have shown that, for example, people assume 
that women and boys are just different in terms of their 
capacity to do science and mathematics. But study after study 
shows that that's just not the truth. When we look at it 
scientifically, we find that if girls are given drafting 
classes, it makes a difference.
    I also want to point out that some of the things that I've 
seen in these studies reflect my personal experiences. I was 
the first and only girl in my high school to take drafting 
classes. And the drafting teacher came and asked my homeroom 
study teacher was this a joke, was she really serious? But it 
was important for engineering and mathematics and going into 
engineering in school.
    While in high school, I also had an opportunity to 
participate in something called the Junior Engineering 
Technical Society Program at the University of Illinois. This 
was a program that exposed urban students to engineering, and 
it gave you an opportunity to think that, yes, I can 
participate in this.
    And yet when I went to Stanford at 16 years of age, it was 
really lucky that I went that young, because I had the 
arrogance of, you know, a kid going off to college in 
California at 16. And that arrogance took me through, because 
many times, some of my professors didn't seem to want me there. 
Now, I must acknowledge that for the record I value my Stanford 
experience. I consider it the best engineering and science 
university I could have attended, and I'm happy and proud to 
say that I'm a Stanford alum. Yet I regret to say that I may 
have earned that engineering degree in spite of, not because of 
my professors.
    I have given a lot more information in my written 
statement, and I'd love to answer more questions. But I want to 
tell you that I still look back at that inclusiveness. I still 
know that it's important, from the International Science Camp 
that I created with girls who always apply in higher numbers 
than boys, because they think, ``Oh, well, it's Dr. J's camp, 
so I can participate,'' to my new project which is called 100-
Year Starship. That's an initiative sponsored by DARPA that's 
looking at how do we make sure that humans have the capability 
in the next 100 years to go to another star system.
    Fundamental to that, to me, was including women in the 
program--inclusiveness. That is fundamental and is a part of 
the program.
    Finally, I just want to introduce someone who is actually 
sitting behind me. It's Dr. Ronke Olabisi, who is going to be a 
biomedical engineering professor at Rutgers University. It's 
one of those things where she benefited from title IX in terms 
of athletics--wave, Ronke--they introduced in terms of title 
IX. But it's important that you look back and you look forward, 
making sure that people are around.
    I wear a bracelet all the time. It says ``Reality Leads 
Fantasy.'' The reality that we create for our children today 
will determine the fantasies that they hold for tomorrow.
    Thank you.
    [The prepared statement of Dr. Jemison follows:]
               Prepared Statement of Mae C. Jemison, M.D.
    Chairman Harkin, Ranking Member Enzi and members of the committee, 
thank you for inviting me to testify at this hearing on the 40th 
anniversary of title IX. This landmark civil rights law has opened 
doors for women and girls on and off the field, and continues to be the 
source of new educational opportunities. There are so many who have 
taken the spirit of this law to heart, including many Members of 
Congress such as yourselves who have championed the law over the years. 
I would also like to thank the advocacy organizations for their 
important efforts to educate the public about title IX, and to work 
with Congress and the Administration to ensure its fair application. 
I'd like to extend a special thanks to the American Association of 
University Women for bringing me here this week, not only for this 
important hearing, but also for other activities celebrating the impact 
of title IX at 40.
    While title IX is most associated with increasing opportunities in 
athletics, I want to focus on the aspect of the law that is nearest to 
my heart. I grew up loving science and always knew that I would go into 
space someday, despite the barriers I faced as an African-American 
woman. My parents made sure I had the educational opportunities I would 
need to excel in academics, even moving to Chicago when I was very 
young, so that I could enroll in quality schools.
    I am honored to have had the opportunity to be the first woman of 
color in the world to have flown into space. I flew aboard the Space 
Shuttle Endeavor on STS-47, an 8-day Spacelab cooperative mission 
between the United States and Japan.
    I felt a strong, special responsibility to fly this mission on 
behalf of those who had come before me and who, because of gender or 
race, had been denied the opportunity I now had. And I was also aware 
that in many ways I was making this flight on behalf of others who 
would come after me . . . Others who, with hard work and determination, 
would be able to achieve their dreams without the barriers of prejudice 
and misperception.
    I imagine Dr. Sally Ride felt a little like I did when, in 1983, 
she became the first American woman in space . . . And Dr. Kathryn 
Sullivan when, in 1984, she became the first American woman to walk in 
space.
    And I like to think so did Colonel Eileen Collins when she 
shattered barriers twice in her Space Shuttle career . . . once as the 
first woman pilot in the world to pilot a spacecraft in 1995 and again 
in 1999 as the first woman in the world to command a Space Shuttle 
mission.
    You see, Sally, Kathy, Eileen, and I all grew up at a time when 
there were no women in the Astronaut Program. There were also no 
African-Americans or Asian-Americans.
    Even as a child, I was aware of this lack of inclusiveness.
    When I was growing up in the 1960s on the south side of Chicago, I 
remember being so excited about space exploration! I wanted to be 
involved!
    But, there was always just one type of person in earth orbit or in 
Mission Control. And they did not look like me. Even though, as a 
country, we would proudly rally and root for the Space Program, so many 
of us felt as though we were left out.
    When I did finally fly in space, the first thing I saw from earth 
orbit was Chicago, my hometown. I was working on the mid deck where 
there aren't many windows, and as we passed over Chicago, the commander 
called me up to the flight deck. It was such a significant moment, 
because ever since I was a little girl I had always assumed I would go 
into space. Looking out the window of that Space Shuttle, I thought if 
that little girl growing up in Chicago could see her older self now, 
she would have a huge grin on her face.
    Today, although women still represent a minority of the Astronaut 
Program, our Space Program is more inclusive. And, as a nation, we 
accept women in space as a routine occurrence.
    It was not that way before title IX.
                   a short story of space exploration
    Please allow me to recall for you this morning what is perhaps a 
forgotten chapter in the history of American Space Exploration . . . a 
chapter that might have been written quite differently had title IX 
come into effect far earlier than it did.
    The story goes something like this . . .
    In 1959, an Air Force Brigadier General by the name of Donald 
Flickinger and a forward-thinking Harvard medical school graduate by 
the name of Dr. Randolph ``Randy'' Lovelace II began contemplating an 
Astronaut Program that included women. Their reasoning was 
scientifically practical on a number of fronts.
    From an engineering perspective, it made more sense to send a woman 
into space. Women have lower body weight and less oxygen requirements 
than men. Since there were concerns about how microgravity would affect 
the cardiovascular system, women were known to have fewer heart attacks 
than men. Also, it was believed that a woman's reproductive system was 
less susceptible to radiation than that of a male; and preliminary data 
suggested that women could outperform men in enduring cramped spaces 
and withstanding prolonged isolation.\1\
---------------------------------------------------------------------------
    \1\ Kathy L. Ryan, Donald E. Loeppsky, and Donald E. Kilgore, Jr. 
``A Forgotten Moment in Physiology: The Lovelace Woman in Space Program 
(1960-1962),'' Advances in Physiology Education (September 2009), pp. 
157, 159.
---------------------------------------------------------------------------
    An independent researcher, Dr. Lovelace had developed the tests for 
NASA's male astronaut selection. He now decided to pursue the ``Women 
in Space Program (WISP).''
    Dr. Lovelace began medical and physiological testing of 19 
accomplished women pilots in 1960. Over 700 women pilots had applied, 
but no candidates with fewer than 1,000 hours of flight experience were 
selected.\2\ Many of the women selected for testing had more flying 
time experience than their male counterparts because several of them 
had been employed as flight instructors. The women were subjected to 
the same tests as were the original Mercury astronauts, with the 
addition of gynecological examinations.\3\
---------------------------------------------------------------------------
    \2\ ``Mercury 13,'' Wikipedia, p. 1.
    \3\ Ryan, et al., op.cit. pp. 157, 160.
---------------------------------------------------------------------------
    Of the 19 women who underwent these rigorous physical and 
physiological tests, 13 (or 68 percent) of the women passed with ``no 
medical reservations.'' In comparison, of the men who underwent the 
testing, 18 of the 32 men (or 56 percent) passed the testing.\4\
---------------------------------------------------------------------------
    \4\ Ibid., p. 161.
---------------------------------------------------------------------------
    According to Donald Kilgore, a doctor who evaluated both men and 
women for space flight, ``They were all extraordinary women and 
outstanding pilots and great candidates for what was proposed. They 
came out better than the men in many categories.'' \5\
---------------------------------------------------------------------------
    \5\ Brandon, Keim, ``Right Stuff, Wrong Sex: NASA's Lost Female 
Astronauts,'' Wired News (October 6, 2009), p. 1.
---------------------------------------------------------------------------
    On August 19, 1960, Dr. Lovelace announced at the Space and Naval 
Medicine Congress in Stockholm, Sweden, ``We are already in a position 
to say that certain qualities of the female space pilot are preferable 
to those of her male colleague.'' He added, ``There is no question but 
that women will eventually participate in space flight; therefore, we 
must have data on them comparable to what we have obtained on men.'' 
\6\
---------------------------------------------------------------------------
    \6\ Ryan, et al., op.cit., p. 160.
---------------------------------------------------------------------------
    However, despite the promising results, further testing was 
suddenly stopped. The Women in Space Program terminated in 1962.\7\
---------------------------------------------------------------------------
    \7\ ``Meet the Women of Mercury 13,'' CBS NEWS Video (July 15, 
2009). According to Jerrie Cobb of the Mercury 13:

      ``I finally got to talk with Vice President Johnson and he said, 
`Jerrie, if we let you or other
      women into the space program, we have to let blacks in, we'd have 
to let Mexican-Ameri
      cans in, we have to let every minority in and we just can't do 
it.' ''
---------------------------------------------------------------------------
    This is not meant to be, nor should it be construed to be, a story 
about, ``Who is better, men or women?''
    This story is really a story about how different the history of the 
American Space Program might have been had title IX been in effect in 
the late 1950s.
    Indeed, one might argue that this is really a story about how 
different the course of American science, technology, engineering, 
medicine, environmental science, art, literature, sports . . . I could 
go on and on . . . would have been if title IX had been in effect long 
before it was finally passed.
    No, there was no title IX in 1959 or in 1962.
    Interestingly, in July 1962, Republican representative Victor 
Anfuso from New York convened public hearings before a special 
Subcommittee of the House Committee on Science and Aeronautics to 
investigate the possibility of gender discrimination in astronaut 
selection.
    These hearings were a testament to how discussions about women's 
rights were more strongly emerging on the political landscape 2 years 
before the Civil Rights Act of 1964. Yet, it was a long 10 years later 
before title IX declared:

          No person in the United States shall, on the basis of sex, be 
        excluded from participation in, be denied the benefits of, or 
        be subjected to discrimination under any education program or 
        activity receiving Federal financial assistance.

    And it is important to point out that title IX offers no special 
advantages or benefits for women and girls. Because it is gender-
neutral, title IX actually benefits men and boys who also want equal 
access to all education and career options.
    As a matter of fact, as a medical doctor, I can tell you that since 
title IX, men have made significant gains within healthcare in several 
areas that have been historically dominated by women.
    What title IX specifically did for the Space Program is help create 
an environment in which incredibly talented, intelligent, dedicated, 
courageous, qualified, and success-oriented women like the Mercury 13 
could no longer be arbitrarily excluded from career positions within 
our country's Space Program simply because they happened to be a group 
of people who happened to be women.
    In the 1970s, when once again the subject of women in the Space 
Program came up, had it been up to NASA management at the time, women 
might not necessarily have been given the opportunity to compete in the 
Astronaut Selection process.
    Title IX made the difference!
    In 1977, NASA did announce that it was looking for qualified 
scientists, technicians, and pilots to compete for positions within the 
Astronaut Corps.

    <bullet> 8,000 people responded.
    <bullet> 1,000 were women.
    <bullet> 35 Astronaut Candidates were chosen.
    <bullet> 6 of them were women.

    In what perhaps was regarded as the most demanding career in 
science, engineering, and technology, women would now be given the 
opportunity to fly in space.
    That opportunity did not exist before title IX.
    Indeed, the world before title IX was dramatically different from 
the world after title IX.
                         the impact of title ix
    Before title IX, because of the sanctioned lack of educational 
opportunity combined with the gender stereotypes that permeated 
classrooms and textbooks, most girls could only see themselves as women 
who were full-time wives and mothers, secretaries, nurses, or 
teachers--portrayals that restricted the career choices.\8\
---------------------------------------------------------------------------
    \8\ ``Learning Environment,'' Title IX Info, The Margaret Fund of 
the National Women's Law Center. (Washington, DC: 2012).
---------------------------------------------------------------------------
    With title IX, though gender stereotypes continued to exist, 
broader arrays of opportunities were made available. Girls were now 
able to think of themselves in future careers not only as full-time 
wives and mothers, nurses, secretaries, teachers but also as full-time 
scientists, doctors, engineers, and lawyers. (One might ask when we 
last saw terms like ``full-time husbands and fathers?'')
    Title IX has changed the expectations women and girls have for 
themselves . . . the expectations and possibilities fathers now have 
for their daughters.
    Unfortunately, today title IX is still needed.
    It is instructive to note that when children in the United States 
are asked to draw a picture of a scientist, overwhelmingly most draw a 
man in a white coat. Few draw a picture of a woman.
    Just a few months ago, the Bayer Corporation released the study the 
``Bayer Facts of Science Education XV,'' a survey of chairs of the 
science, technology, engineering, and mathematics (STEM) departments of 
our Nation's 200 top research universities.\9\
---------------------------------------------------------------------------
    \9\ ``STEM Education, Science Literacy and the Innovation Workforce 
in America: Analysis and Insights from the Bayer Facts of Science 
Education Surveys 1995-2011,'' Bayer's STEM Diversity And Higher 
Education Forum (Washington, DC: April 18, 2012).
---------------------------------------------------------------------------
    As an astronaut, medical doctor, chemical engineer, and Ivy League 
college professor, I believe the crucial story that emerges from this 
survey is the failure of universities, STEM departments and professors 
to recognize and understand the role they play in undermining or 
promoting women and underrepresented minority students' success in 
seeking and completing STEM degrees.
    By department chairs' own account, women students arrive at college 
the best prepared academically of all students for STEM degree success, 
but graduate with STEM degrees at lower rates than their male 
counterparts.\10\ And while half the chairs considered underrepresented 
minorities less well prepared, these chairs acknowledged that even 
minority students well-prepared academically for STEM success graduated 
at lower rates.
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    So clearly, there is something about the interaction and engagement 
of women and underrepresented minority students in college that affects 
these students adversely--whether it is courses that disproportionately 
``weed out'' students, few women professors, or discouraging those who 
are not the stereotype of a successful STEM student.
    A prior study, Bayer Facts of Science XIV, surveyed women and 
minority members of the American Chemical Society. These were 
professionals who had successfully completed degrees in chemistry and 
chemical engineering. Yet, more than 40 percent of these STEM graduates 
stated that they were actively discouraged from pursuing STEM fields in 
college by a college professor, the most commonly cited instances of 
active discouragement. Conversely, these individuals also noted that 
internships, mentoring and hands-on experiences in science throughout 
K-12 and college where positive influences in their choice of a STEM 
career.\11\
---------------------------------------------------------------------------
    \11\ ``Female and Minority Chemists and Chemical Engineers Speak 
about Diversity and Underrepresentation in STEM,'' Bayer Facts of 
Science XIV (March 2010).
---------------------------------------------------------------------------
    College STEM departments are critical choke points in education--
that point early in students' lives where they make important decisions 
about their careers.
    Interestingly, my own personal academic experiences echo these 
studies.
                          personal reflections
    In my high school, I was the first and only girl to take drafting 
classes. But when the drafting instructor, Mr. Okelpec saw my name on 
the roster, he asked my homeroom teacher Mrs. Roberts if this was a 
joke. Yet no such question was posed when my brother signed up for the 
class.
    Mrs. Roberts explained that I intended to pursue science and 
engineering and, to his credit, Mr. Okelpec made sure that I did all 
the kinds of machine drawings, blueprints, and designs that an engineer 
would expect to encounter.
    While in high school, I also took advantage of a 2-week program 
sponsored by the Junior Engineering Technical Society (JETS) at the 
University of Illinois at Urbana that exposed urban students to 
engineering. It was on that campus when I really learned about 
engineering and made the decision to pursue engineering in college.
    I was 16 when I entered Stanford University and I was full of all 
of the arrogance that a 16-year-old who left Chicago to go to 
California on her own might have. That extra dose of confidence proved 
critical, however, because it got me through STEM courses in which some 
of the professors did not seem to want me. Professors outside the 
sciences seemed far more welcoming to me and this enabled me to 
emotionally re-charge and surmount the challenges posed by the poor 
reception I received from my professors in STEM courses--hurdles the 
male students did not encounter. For the record, I value my Stanford 
experience and consider it the best engineering and science research 
university I could have attended and I am happy to have attended. I am 
a proud Stanford alumni. Yet, I regret to say, that I may have earned 
that engineering degree in spite of, rather than because of, some of my 
professors.
    Fortunately, while I went to Stanford, I had a scholarship from 
Bell Laboratories that provided me intense research environments in 
science and engineering, as well as a host of supervisors--engineers, 
computer programmers, and scientists--who clearly expected me to do 
well.
                      the facts of women and stem
    Although debunked by scientific research, stereotypes about male 
and female abilities in STEM persist and are seriously sabotaging 
women's success.
    Implicit gender biases can have a major influence on a girl's or 
woman's decision to remain in a STEM field. Gender biases may directly 
or indirectly determine whether a woman is hired. Gender biases may 
also directly or indirectly impede the promotion rate and career 
advancement of female employees.\12\
---------------------------------------------------------------------------
    \12\ Title IX at 40, American Association of University Women, The 
National Coalition for Women and Girls in Education, (2012), p. 18.
---------------------------------------------------------------------------
    Early on, such biases may prevent a female student from even 
considering an academic pursuit or career in STEM. These biases have 
also been shown to influence whether parents and faculty encourage a 
female student to pursue a career in science or engineering, or any of 
the other STEM disciplines.\13\ What seems obvious has also been 
scientifically proven over and over again. These biases negatively 
affect a female student's academic performance in a STEM course.
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    For example, in one landmark study, girls who were made to feel 
inadequate performed significantly worse than their male counterparts 
on a challenging math test. However, girls in the control group who had 
not been influenced by a negative stereotype threat condition scored 
similarly to their male counterparts.\14\
---------------------------------------------------------------------------
    \14\ S.J. Spencer, et al. ``Stereotype Threat and Women's Math 
Performance,'' Journal of Experimental Social Psychology, 35 (1), 1999.
---------------------------------------------------------------------------
    Some 300 additional studies supporting this finding have been 
published since this precedent-setting 1999 study.\15\ One such study 
(Kane and Mertz) was just published in January of this year and it 
further confirmed that the cultural influence of gender stereotypes and 
biases against women in STEM disciplines is related to gender 
differences in performance.\16\
---------------------------------------------------------------------------
    \15\ Title IX at 40, op.cit., p. 19.
    \16\ Jonathan M. Kane and Janet E. Mertz, ``Debunking Myths and 
Gender and Mathematics Performances,'' Notices of the AMS (January 
2012).
---------------------------------------------------------------------------
    Scientific research has not demonstrated what the stereotypes would 
have us believe--that there are innate differences between boys and 
girls when it comes to mathematical or scientific abilities. Study 
after study has shown that spatial reasoning abilities are not pre--
ordained by gender. Instead, exercise of these abilities is influenced 
by social context and the degree of gender equality in a society.\17\
---------------------------------------------------------------------------
    \17\ Title IX at 40, op.cit., p. 18.
---------------------------------------------------------------------------
    This investigation further demonstrated a strong link between the 
implicit gender-science stereotype of a country and the subsequent 
gender difference in test performance.\19\ The study evidences that 
differences between male and female students' performance in math and 
science are caused by cultural, rather than innate or biological 
factors.\18\
---------------------------------------------------------------------------
    \18\ Ibid.
---------------------------------------------------------------------------
    By focusing on the varying percentages of participation by women in 
science, technology, engineering, and mathematics in different 
countries, the study effectively documents the impact of culture on 
performance.\19\ For example, 40 percent of the students at the 
University of Puerto Rico at Mayaguez's engineering programs are 
women.\20\ In Romania, 44 percent of researchers in engineering and 
technology are women. Yet, in the United States, only 11 percent of 
engineers are women.\21\
---------------------------------------------------------------------------
    \19\ Kane and Mertz.
    \20\ Catherine Pieronek, ``The State of Women in Engineering,'' 
Presentation given at the University of Notre Dame (October 12, 2011).
    \21\ Title IX at 40, op.cit., p. 18.
---------------------------------------------------------------------------
                               the 3 e's
    The critical importance of culture and learning environments on 
student abilities, interests, and performance must not be overlooked, 
ignored, or underestimated. The factors that I see as key to women and 
girls and minorities succeeding in STEM fields are, in fact, supported 
by the core values of title IX.
    I call those factors ``the 3 E's--Exposure, Expectation, and 
Experience.''
    For students, ``Exposure'' means knowing what careers in the STEM 
fields entail, and interacting with individuals in these various 
disciplines to develop a level of comfort with the fields.
    ``Expectation'' means seeing oneself as a potential member of the 
discipline, recognizing that one has the right to participate in STEM 
courses, and that one should have expectations of success and 
contributions.
    Students who gain ``Experience'' in the STEM fields will have the 
opportunity to compete with their talented counterparts and build the 
confidence necessary to meet challenges effectively.
    When President Maria Klawe, Ph.D. arrived 6 years ago at Harvey 
Mudd College in southern California, 33 percent of the student body was 
female, but only 10 of the computer science majors were female. She 
took several deliberate steps to address this problem, including making 
small changes to the curriculum to require more introductory classes 
and ease the practice of ``weed out'' classes. Today, 42 percent of the 
student body is female, and 40 percent of computer science majors are 
women.
    Girls who grow up in an environment that cultivates their success 
in science and math will be more likely to develop skills and 
confidence, and to consider a future in STEM.
    That is why the Dorothy Jemison Foundation for Excellence engages 
girls and boys in science through programs like our 4-week residential 
summer camps specifically designed for middle school and secondary 
school students, ages 12-16. These camps successfully increase our 
students' science literacy, their problem-solving skills, their 
knowledge of the impact of science and technology on society, and their 
understanding of societal and environmental impact on science 
endeavors. Their learning occurs in an encouraging and exciting 
atmosphere where they are supported, while being challenged to reach 
their greatest potential. Interestingly, our The Earth We 
Share<SUP>T</SUP><SUP>M</SUP> international science camp receives far 
more applications from girls than boys!
    Women make up over 50 percent of our population. Failure to seek, 
nurture, and develop their talent is a failure to capitalize on a great 
national resource. Notably, the attrition rate of women and girls from 
academics and careers in science, technology, engineering, and 
mathematics does not benefit their male counterparts.
    Rather, the loss of talent and contribution by a significant 
segment of our population seriously endangers our Nation's economic 
competitiveness at a time when our Nation needs to take advantage of 
our country's intellectual resources and full capacity for innovation.
    In a global marketplace increasingly driven by technology, 
promoting the talents and contributions of women and minorities is an 
essential strategy to maintain our Nation's scientific vitality, 
economic prosperity, and national security.
    To be at the forefront of technology at the international level, 
the United States must continue to produce technological and scientific 
talent capable of meeting the challenges of tomorrow regardless of the 
gender or race of that talent--talent that resides as much in our 
female and minority population as it does in the more traditionally 
recognized STEM populations.
    And title IX has had an impact that goes beyond numbers, because it 
is also about the perspectives that women bring to an issue.
    For example, when I was in medical school, breast cancer was 
treated by mastectomy. Not only was the procedure disfiguring, but it 
was also based on the paradigm that an invasive surgery with 
significant unpleasant sequela was the primary and best we could offer. 
It was not until women physicians, in significant numbers, insisted 
there might be other medical alternatives and investigated other 
options. Now, there are treatment options like lumpectomy, localized 
radiation, anti-hormonal therapy that lead to better success.
    Accompanying me today is Dr. Ronke Olabisi, a biomedical engineer 
who is leading breakthrough research in growing new bone precisely 
where and when it is needed. Dr. Olabisi is a young woman whose 
scientific and athletic opportunities in college were positively 
impacted by title IX.
    I cannot emphasize enough the importance of culture, and a positive 
and encouraging learning environment to students' excelling.
    I never forgot those childhood feelings and experiences. The 
lessons I learned about the need for inclusiveness stayed with me 
through my life, and even today, remain enduring principles that 
influence my beliefs, my attitudes, my behavior, and my ideals.
    For example, recently the Dorothy Jemison Foundation for Excellence 
won a grant by the Defense Advanced Research Projects Agency (DARPA), 
to assist in the creation of what DARPA described as ``persistent, 
long-term, private sector investment'' to develop the technology and 
capabilities for long-distance space travel.
    Called the 100 Year Starship (100YSS), the program is an exciting 
leadership initiative which emphasizes the importance of ``inclusion'' 
specifically as a primary means toward the achievement of such an 
audacious goal. The success of the 100 Year Starship Program requires 
we take advantage of the full wealth of talent, insight, experience and 
expertise our country has to offer. Just as 100YSS works across 
disciplines, it is very important to me that the Program also makes 
space travel more accessible to the public, both as beneficiaries and 
as participants. The Dorothy Jemison Foundation for Excellence is very 
excited about the 100 Year Starship Program and, through the 100 Year 
Starship Program, the ideals of title IX will be represented.
    Title IX has significantly closed the gap between male and female 
performance in science, technology, engineering, and mathematics. But 
cultural biases and persistent stereotypes continue to impede the 
advancement of girls, women, and minorities in these fields.
    The female and minority attrition rate in STEM at every level of 
education is still unacceptably high, and these attrition rates occur 
at a dangerous cost to United States competitiveness in the global 
marketplace.
    Knute Rockne, one of college football's greatest coaches, once 
said, ``Your success in the future depends on the present. Build 
well.''
    Our country is rich with resources of talent, intelligence, and 
determination. Americans have great capabilities motivated toward 
success and a selfless passion for personal contribution.
    But America's success in the future depends on the present. As a 
nation, we must build well.
    We need more scientists, technologists, computer specialists, 
mathematicians, engineers--bright, well-educated, and highly motivated.
    And if title IX achieves its full potential, we will one day be a 
nation not of female engineers or black scientists, but a nation of 
very talented engineers, scientists, and physicists who happen to be 
women or black or white or male, but who are respected for our talents 
and capabilities . . . and our commitment to our country's successful 
future.
    Title IX was designed to be a strong and comprehensive measure that 
would attack all forms of sex discrimination in education and, in so 
doing, provide educational opportunities formerly closed to women and 
girls. While title IX has indeed succeeded in opening doors in the 
classroom and on the athletic field, inequities and barriers still 
remain. Through good enforcement and heightened public attention to 
these issues, even more progress can be made--the future is bright.
    As we celebrate the 40th anniversary of title IX, the message we 
send to young girls is one that encourages their interest in STEM and 
provides opportunities for them to fully develop and explore their 
interest. We must help young scientists become the astronauts and 
professional scientists, mathematicians and engineers of the future. 
They deserve the chance. And our Nation needs them.
    Thank you very much. I look forward to your questions.
                              Bibliography
Ackmann M. The Mercury 13: The True Story of 13 Women and the Dream of 
    Space Flight. New York: Random House, 2003.
Freni, P. Space for Women: A History of Women with the Right Stuff. 
    Santa Ana, CA: Seven Locks, 2002.
``History of Title IX,'' Title IX Info, The Margaret Fund of the 
    National Women's Law Center. Washington, DC: 2012.
Kane, Jonathan M. and Janet E. Mertz, ``Debunking Myths about Gender 
    and Mathematics Performance.'' Notices of the AMS, January 2012.
Keim, Brandon. ``Right Stuff, Wrong Sex: NASA's Lost Female 
    Astronauts.'' Wired News. October 6, 2009.
Maatz, Lisa. (NCWGE Chair, American Association of University Women). 
    Title IX at 40. The National Coalition for Women and Girls in 
    Education, 2012, pp. 1-26.
``Meet the Women of Mercury 13.'' CBS News Video. July 15, 2009.
Nosek, B.A., et al. ``National Differences in Gender-Science 
    Stereotypes Predict Sex Differences in Science and Math 
    Achievement.'' Preceedings of the National Academy of Science, 106 
    (26), 1999, pp. 10593-97.
Pieronek, Catherine. ``The State of Women in Engineering,'' 
    Presentation Given at the University of Notre Dame, October 12, 
    2011.
Ryan, Kathy L., Donald E. Loeppsky, and Donald E. Kilgore, Jr. ``A 
    Forgotten Moment in Physiology: The Lovelace Woman in Space Program 
    (1960-1962).'' Advances in Physiology Education. (September 2009), 
    157-64.
Spencer, S.J., et al. ``Stereotype Threat and Women's Math 
    Performance,'' Journal of Experimental Social Psychology, 35 (1), 
    1999.
``STEM Education, Science Literacy and the Innovation Workforce in 
    America: Analysis and Insights from the Bayer Facts of Science 
    Education Surveys 1995-2011.'' Bayer's STEM Diversity and Higher 
    Education Forum. Washington, DC: April 18, 2012.

    The Chairman. Thank you very much, Dr. Jemison. That was 
excellent.
    And now Admiral Stosz.

 STATEMENT OF REAR ADMIRAL SANDRA L. STOSZ, SUPERINTENDENT OF 
          THE U.S. COAST GUARD ACADEMY, NEW LONDON, CT

    Admiral Stosz. Good morning, Chairman Harkin, Senator Enzi, 
Senator Mikulski, and distinguished members of the committee. I 
am Rear Admiral Sandra Stosz, Superintendent of the United 
States Coast Guard Academy. It is a pleasure to be here today 
to talk about the triumphs of title IX.
    I must start by thanking the many women who went before me 
on whose shoulders I stand, including the remarkable women to 
my right, the female athletes, and the members of the Coast 
Guard Women's Reserve and all the women and men who supported 
similar legislation that offered women like me opportunities 
never before available. I am continually thankful to have been 
born at exactly the right time to benefit from title IX and 
other equal rights legislation.
    By the time I entered high school, title IX had been in 
place for 2 years, and I participated as an active member of 
the varsity basketball and field and track teams. Athletics 
shaped and focused me and gave me the confidence to realize 
that through perseverance and hard work, I could pave my own 
way to success. Winning the State championship in my track and 
field event was a life changing experience for me, and I am 
confident it is what motivated me to set my sights high and 
helped distinguish me when applying for admission to the Coast 
Guard Academy.
    Receiving a high school education rich in science and math 
also played an important role in preparing me for success in 
life. My father was a scientist, and as a young girl, I always 
dreamed of becoming a biologist, zoologist, ornithologist, or 
anything ending in ologist. I took all the science, technology, 
engineering, and math courses available to me in high school 
and built my confidence as a result of induction into the 
National Honor Society and graduating in the top 5 percent of 
my high school class.
    In 1976, when I was a rising junior in high school, the 
U.S. Coast Guard Academy led the Federal armed service 
academies in opening their doors to admit women for the first 
time. In 1978, I entered the Coast Guard Academy as a member of 
just the third class of women. Although the Academy's science, 
technology, engineering, and math majors were all open to women 
at the time, varsity sports had to be started from scratch.
    I graduated from the Coast Guard Academy in 1982 and now 30 
years later have the distinct honor and privilege of serving as 
superintendent of my alma mater. Although I benefited greatly 
from title IX, the real success story is evident in the 
achievements of the young women who now comprise one-third of 
the cadet corps. These young women are in STEM degrees and 
compete in varsity or club sports in basically the same 
proportion as their male counterparts--and that's about two-
thirds of our cadets--either earn one of our six STEM majors or 
compete in varsity or club sports, both men and women equally.
    I am very proud of our women's varsity sports teams. This 
year, our women's volleyball team won the conference 
championship, and our women's varsity crew placed seventh in 
the NCAA Division 3 national rowing championship, and that was 
led by All-American Ensign Sarah Jane Otey, one of our cadets 
that just graduated, a scholar athlete who has been nominated 
as the NCAA Woman of the Year.
    Finally, our women's softball team, led by All-American 
pitcher, Hayley Feindel, who has broken almost every record for 
Division 3 softball, placed third in the NCAA Division 3 
regional tournament.
    When the Coast Guard Academy first admitted women in 1976, 
the decision was made to offer women parity with men in a 
significant manner beyond academic majors and sports. Women 
were offered access to every operational specialty available to 
a man in the Coast Guard. This fostered a healthy culture of 
inclusion and equality versus the perception that women are 
less capable of performing the more demanding roles.
    I am thankful that the Coast Guard and the Coast Guard 
Academy provided me equal access and parity from the very 
start, as opposed to some of the other service academies who 
were excluded by combat exclusion laws and that sort of thing. 
I am thankful for the Coast Guard Academy, that they provided 
me equal access right from the start. Through hard work and 
perseverance, it was a natural progression that a woman like me 
could rise through the ranks to serve as the first female 
superintendent of a Federal service academy.
    A generation after implementation of title IX and other 
laws offering women equal opportunity, I am proud to see young 
women and men graduating with confidence and competence from 
the Coast Guard Academy as leaders of character and selfless 
service to their nation. Although title IX benefited me and 
provided me the opportunities necessary for a successful 
personal and professional life, I am most thankful for its 
lasting impact on successive generations of young women who 
will some day replace me looking forward.
    I want to close by thanking the committee for offering this 
chance to reflect back on a significant moment in our Nation's 
history. Title IX had a huge positive impact. We owe it to 
those who worked so hard to provide us with these priceless 
opportunities to reflect back with thanks for what they did and 
to look forward with conviction to do our part to make this 
great Nation even better for the next generation.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    [The prepared statement of Rear Admiral Stosz follows:]
           Prepared Statement of Rear Admiral Sandra L. Stosz
    Good morning Chairman Harkin, Senator Enzi, and distinguished 
members of the committee. I am Rear Admiral Sandra Stosz, 
Superintendent of the U.S. Coast Guard Academy.
    Thank you for inviting me to speak about the impact of title IX. I 
must start by thanking the many women who went before me--the female 
athletes and members of the Coast Guard Women's Reserve--and all the 
women and men who supported seminal legislation that offered women 
opportunities never before available. These opportunities provided 
equal access to athletic activities and institutions of higher 
education from which girls and women were previously excluded.
    As the eldest of four siblings, I was a tomboy raised with three 
brothers. My parents never denied me opportunities at home, and as a 
youth, I participated with my brothers in competitive swimming and 
tennis at a local summer recreation facility. By the time I entered 
high school in 1974, title IX had been in place for 2 years, and I took 
physical education class and participated as an active member of the 
varsity basketball and track & field teams.
    As a shy teenager, athletics shaped and focused me and gave me the 
confidence to realize that through perseverance and hard work, I could 
pave my own road to success. Winning the State championship in my track 
and field event was a life-changing experience for me, and I am 
confident it is what motivated me to set my sights high and helped 
distinguish my application for admission to the Coast Guard Academy.
    Receiving a high school education rich in science and math also 
played an important role in preparing me for success in life. My father 
was a scientist, and as a young girl I always dreamed of becoming a 
biologist, zoologist, ornithologist, or anything ending in ``ologist.'' 
I took all the Science, Technology, Engineering and Math courses 
available in high school. Induction into the National Honor Society and 
graduating in the top 5 percent of my high school class built my 
confidence in my own abilities.
    In 1975, when I was a junior in high school, a second piece of 
seminal legislation was enacted requiring the Federal service academies 
to open their doors to admit women. Living in Ellicott City, MD, I read 
an article in the ``Baltimore Sun'' describing the Naval Academy and 
the wealth of opportunity available to those who could persevere 
through the incredibly demanding nomination and admissions process. 
Straight away I started the application process, eventually achieving a 
coveted nomination to the U.S. Naval Academy from Senator Paul 
Sarbanes. At that point my application entered the competition for an 
appointment.
    An observant guidance counselor informed me that there was a Coast 
Guard Academy in New London, CT, that offered virtually the same 
opportunities, but operated on the direct admission process. I applied 
to the U.S. Coast Guard Academy initially as a backup, but when I was 
quickly offered an appointment, I sent in my deposit, pleased and proud 
to have been accepted to a high quality institution of higher education 
that valued me entirely on my own merit.
    In 1978, I entered the Coast Guard Academy as a member of just the 
third class of women to be admitted. Women's sports teams were still 
being established, and there were not enough women to field full teams. 
Sailing was easy to adopt as a coed sport, so that was where I applied 
myself for most of my 4 years as a cadet. Learning seamanship and boat 
handling as a cadet also prepared me well for my career at sea as an 
officer. I also swam for a season as the first woman ever on the men's 
swim team, and took pride in having helped pave the way when the 
Academy eventually stood up a women's swim team.
    As a result of my interest in science, I initially pursued the 
Marine Science major at the Coast Guard Academy. However, I shifted 
over to Government as a result of broadening interests. Today, the 
Marine Environmental Science major is one of six technical majors 
offered at the Academy, and it is a huge draw for women. The Academy 
also offers degrees in Management and Government. All degrees conferred 
are Bachelor of Science degrees as a result of our Science, Technology, 
Engineering, and Mathematics (STEM) based core curriculum. Over the 
past decade, nearly two-thirds of our women have graduated with STEM 
degrees, which is on par with their male counterparts. All Ensigns 
graduate with their degree, along with a commission in the U.S. Coast 
Guard and guaranteed employment in service to their nation.
    I graduated from the Coast Guard Academy in 1982 and now, 30 years 
later, have the distinct honor and privilege of serving as 
Superintendent of my alma mater. I am very proud of the fact that 
women, who made up just over 5 percent of the cadet corps when I 
entered in 1978, now comprise one-third of the cadet corps. Although I 
benefited greatly from title IX, the real success story is evident in 
the achievements of the young women who make up today's generation. In 
their lifetimes, these young women have always had comparable access 
and parity with their male counterparts. They are expected and 
encouraged to participate in sports and to pursue STEM majors.
    The Coast Guard Academy offers 21 National Collegiate Athletic 
Association (NCAA) sports--11 for men, 9 for women and 1 (rifle), which 
is for both men and women. We also offer eight chartered club sports 
including both men's and women's lacrosse and men's and women's rugby. 
As the percentage of women has increased at the Academy, we have 
likewise increased the number of our women's varsity sports, without 
adversely impacting our men's sports. Nearly 80 percent of our cadets 
are involved in a varsity or club sport.
    This past year, our women's varsity teams performed better than our 
men's teams. Our women's volleyball team won the Conference 
championship. The women's varsity crew team recently won the Petite 
Final, placing seventh in the NCAA Division III national rowing 
championship and led by All-American Ensign Sarah Jane Otey, a scholar-
athlete who has been nominated as the NCAA Woman of the Year. Finally, 
our women's softball team, led by All-American pitcher Ensign Hayley 
Feindel, went further than ever before in the post-season, placing 
third in the NCAA Division III regional tournament.
    When the Coast Guard Academy first admitted women in 1976, the 
decision was made to offer women parity with men in a significant 
manner beyond academic majors and sports: women were offered access to 
every operational specialty. Aside from the obvious opportunity this 
parity provides women, it also fosters a healthy attitude of inclusion 
among their male counterparts. Excluding women from certain operational 
specialties and roles creates a perception that women are less capable 
of performing the more demanding roles. I am thankful the Coast Guard 
Academy provided me equal access and parity from the start. Through 
hard work and perseverance, the progression of women through the ranks 
was natural. As the first female superintendent of a Federal service 
academy, I am one example of what parity has yielded.
    A generation after the implementation of title IX and other laws 
offering women equal opportunity, I am proud to see young women and men 
graduating with confidence and competence from the U.S. Coast Guard 
Academy as leaders of character in selfless service to their nation. 
Although title IX benefited me, and provided me the opportunities 
necessary for a successful personal and professional life, I am most 
thankful for its lasting impact on successive generations of young 
women who will someday replace me.
    I want to close by thanking the committee for offering this chance 
to reflect back on a significant moment in our Nation's history. Title 
IX had a huge, positive impact. We owe it to those who worked so hard 
to provide us with these priceless opportunities to reflect back with 
thanks for what they did and to look forward with conviction to do our 
part to make this great Nation even better for the next generation.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Mikulski. Senator Harkin, excuse me----
    The Chairman. Thank you very much, Admiral.
    Senator Mikulski.
    Senator Mikulski. I have to leave to go to another hearing. 
I'd like to thank you for convening this.
    The Chairman. If you have some questions, go ahead.
    Senator Mikulski. Well, what I just wanted to say was, 
first of all, thank you for convening this. And rather than a 
self-congratulatory retro look at what's been accomplished, I 
think the panel has laid out very interesting data, statistics, 
recommendations on where we are, both the experience of girls 
in our society, but also for the boys as well, and I think 
particularly in the area of STEM education, where there's such 
a crying need for talent in our country.
    You heard Dr. Jemison talk about the work of one of our 
professors, who improved graduation rates in not only STEM, 
generally, but also in computer science, where we're running a 
workforce shortage. So I think there's a lot here to not only 
be retro, but to look ahead particularly at what this means. I 
want to comment on Admiral Stosz. She's a Marylander.
    And, if I could, I'd like to direct questions to you. I'm 
on the Board of Visitors at the Naval Academy, and now that 
women are being admitted, the question is graduation rates. One 
of the things that we've heard from other service academies, 
Admiral--and I wonder if you have experienced or observed this 
in your career--is that one of the predictive rates of success 
is if a girl had high school athletic experience, and that high 
school athletic experience, even if it was intramural, when she 
came to the academy she was, first of all, physically fit for 
the rigors of a military academy, but also had this attitude of 
competition; get out there, play, don't be afraid of losing the 
ball--all the attitudes exhibited in sports, because in sports, 
even if you make a mistake, you go ahead.
    So I wonder, at the Coast Guard Academy, have you seen the 
correlation between graduation rates and athletic participation 
in high school?
    Admiral Stosz. Thank you for the question, Senator.
    Senator Mikulski. Does it go to what happened to them in 
high school, not only their SAT scores, but what they did in 
field hockey, which is what I played.
    Admiral Stosz. Thank you for the question, Senator. We have 
not done an analysis on the high school background of our young 
women cadets. But that's an intriguing question. Our women do 
graduate at about the same percentage that their male 
counterparts do from the Coast Guard Academy. I can get you 
those exact numbers.
    I'm intrigued by the analysis. Most of our young cadets 
coming into the Coast Guard Academy have a strong background in 
athletics. Eighty percent of our cadets--about 80 percent--
participate in either varsity sports or club sports at the 
Coast Guard Academy.
    But, ma'am, we'll get back to you on the exact graduation 
rates, and we'll take a look at the research behind the varsity 
sports in high school as a predictor for success at the 
academy. We have not done that.
    Ms. Hogshead-Makar. Can I add something? Senator Mikulski, 
there's some great research by an economist at Wharton, Betsey 
Stevenson. What she looked at was the generation just before 
and just after title IX. The rates of participation just flew 
up right away, and I provided in my formal testimony those 
graphs.
    She was able to look at the different States that provide 
different amounts of sports, and by sort of teasing out these 
numbers, she was able to show that sports is not just 
associated with more education. You said 80 percent. That's 
really high. It's not just associated with it. It actually 
causes more education and causes girls, in particular, to go 
into non-traditional careers, things like STEM, going to law 
school or medical school, and not only that, but being employed 
and working full-time.
    We have all the data and the scholarship necessary for us 
to say that sports are a very good investment in our public 
dollars, for what it means for our country to be competitive, 
as you said, for the rest of their lives and healthy for the 
rest of their lives. Sports participation is the No. 1 
prevention of obesity. It's the No. 1 thing that you can do as 
a youth that will prevent obesity for the rest of somebody's 
life.
    And yet we have more schools who are not providing sports 
at all. It went in the last 10 years from 8 percent of all 
schools not providing sports now to 15, and we still have these 
huge gaps. I mean, think about being admissible into the Coast 
Guard or into Stanford University here if sports participation 
is associated with these things, and we're giving girls 1.3 
million fewer of these opportunities in high school.
    Senator Mikulski. Well, thank you. I know my time is up, 
and I know we'll continue the conversation through the other 
questions. Thank you all for what you've done, and thank you 
for the challenge about what we need to do.
    Mr. Chairman.
    The Chairman. Thank you very much, Senator Mikulski. Again, 
I want to thank the entire panel.
    I think I'll just start a round of 5-minute questions here. 
I think one of the important things that was stated here this 
morning and that should be repeated often is that because women 
gained under title IX, men didn't lose. It's often been 
presented that way, and that's what a lot of the court cases 
have been about. But if you look at the data, for example, just 
in STEM fields, in 1972, women's share of Ph.D.s in science, 
engineering, math, and medicine was 11 percent. In 2006, in 
that same group, it's 40 percent.
    In high school athletics--this is where you get the idea 
that if women gain, men lose. In the 1971-72 school year in 
high school, only about 294,000 girls participated in high 
school sports, compared to 3.6 million boys. That was about 7 
percent. In 2010-11, the number of female athletes had 
increased more than tenfold to nearly 3.2 million, 41 percent 
of all high school athletes. Men saw an increase as well--4.4 
million male high school students now involved in sports. So 
both gained.
    College athletics--1971-72, fewer than 30,000 women 
participated in college sports, compared to 170,384 men. In 
2010-11, 193,000 females participated in college athletics, a 
six-time increase over 1971, and men went from 170,000 to 
256,000. There was a gain there, also. It's just not simply 
because women gained in sports and other areas that the men 
lost.
    The second thing I would like to ask you all is, let's look 
at sports. I want to get to STEM, but let's look at sports. I 
have been very much involved in trying to encourage physical 
exercise in schools for little kids, kids in elementary school 
and middle school. Some kids don't take to competitive sports 
very well. I don't care how hard I tried, I could never be a 
tennis player like Ms. King. I could never be a swimmer like 
you. There's just nothing I could ever do to do that. I don't 
have those attributes. I could do a little bit of this and a 
little bit of that.
    But address yourself to competitive sports versus non-
competitive exercise for all kids in school who may not be able 
to engage in a competitive sport but need exercise at an early 
age in school so that they can stay healthy all their lives. 
Have you factored that in at all, thinking about that?
    Ms. King. It's all about exercise. It's all about moving. 
My mother just turned 90 years old, and one saying she always 
has is you have to keep moving or it's over. She always reports 
to me every day how many times she's walked around this pathway 
in the home with her walker, and she always reports to me every 
evening when I call her. I've had that mantra be a part of me.
    Also I have a younger brother who is a professional 
baseball player, Randy Moffitt, who played most of his career 
with the San Francisco Giants as a relief pitcher. He and I 
were always moving.
    But it's not important that you be in a competitive sport 
all the time, even though I do think it teaches you lessons in 
life and how to succeed. But the most important thing is to get 
them to dance, get them to walk, get them to run, get them to 
play. Play is very important.
    I'm on the President's Council for Fitness, Sports, and 
Nutrition, and some of the things that I've been learning 
because I'm on the President's Council is that if you'll get a 
child or young people to move even a minute to get circulation 
going--if they will exercise 20 minutes before they take a huge 
exam, they do better. And it's very obvious when you think 
about your circulation, getting oxygen to the brain. I'm not a 
scientist. I'll defer to people over here that have a lot 
better education than I do in that area.
    But it's so obvious that that works. It just helps everyone 
academically. It teaches them all kinds of things. But you 
don't always have to be the super competitive athlete.
    The Chairman. I went to a small country school, but we had 
15 minutes in the morning, 15 minutes in the afternoon, and a 
half-hour lunch. One hour a day, we had to go outside and do 
something.
    Ms. King. Right.
    The Chairman. And move around. That was every day.
    Ms. King. Yes.
    The Chairman. Today, the figures show--the figures that we 
have in this committee is that most kids in elementary school 
in America get less than 1 hour of P.E. or any kind of exercise 
per week.
    Ms. King. Right. Yes. And they're supposed to have 1 hour 
at least five times a week.
    The Chairman. I think so, yes.
    Ms. King. Under 18. That's the recommended time.
    The Chairman. I've just been rolling this around in my head 
that perhaps we ought to think about it in terms of sports. And 
when it comes to mind, sports--you're playing against somebody. 
It's a basketball or--don't get me started on football, but, 
anyway, that type of thing.
    But maybe sports ought to be something else that maybe 
involves just exercise, getting your heart rate up and things--
that you engage in that kind of a sport, an individual kind of 
a sport. Anyway, think about it. Maybe that ought to be 
redefined a little bit.
    Ms. King. Actually, a lot of the manufacturers of video 
games are creating more and more exercise video games, because 
the young people have 7 to 8 hours of screen time a day. And 
they're figuring, ``Well, if they're going to be looking at the 
screen, if we can get them to exercise, then it'll work.'' 
We're actually working together with the different companies.
    Dr. Jemison. Senator Harkin, I was wondering if I could 
throw in something that actually ties the STEM and the arts and 
all of that together. One of the best questions I was ever 
asked by someone was by a little girl, who asked me--she was 
about 11 years old--asked me did dance--because everybody then 
knew I danced a lot when I was in high school and college. She 
said, ``How did dance help you with the astronaut program?'' 
And, of course, everyone laughed at her.
    But the reality is what you get from trying to dance very 
hard or other things is practice. You get a discipline and a 
commitment that you have to do. That discipline and commitment 
made it easy to go through, for example, what you have to do in 
medical school, where you just have to practice over and over 
again physical exams, the same kind of practice that you do in 
the astronaut program when you're training for something.
    Sometimes it's the discipline, the physicality to it, which 
also becomes one of those issues that you see with girls. 
Instilled in their confidence is the physicality of doing 
things, where you don't just look pretty all the time. You're 
sweating and you're doing all those other things.
    I think it's a combination of things, and I think it has an 
impact, yes, about obesity and other things that we're 
interested in, but very far reaching in terms of how we see 
ourselves as humans and the confidence that we develop and its 
application to many other things that are not directly 
associated.
    The Chairman. Thank you.
    Admiral Stosz. Senator, I'd like to put a push in for 
educating and training those young people at the young 
elementary school age in sports, in academics, so that we can 
develop them so they can be qualified to enter as applicants 
into the Federal service academies truly having the athletic 
ability and being healthy enough to enter in and serve their 
nation should they so volunteer and choose to do so. It's 
incredibly important for our national security.
    And to answer your first question, should women's sports, 
if they rise, bring down men's, at our Coast Guard Academy, we 
do have 11 men's varsity sports and nine women's. But as we 
increased our women up toward the one-third percentage of our 
corps size now, we haven't deleted any men's programs. We've 
increased the women's programs, and we've been committed to 
finding various funding mechanisms to do that, through non-
appropriated funds and volunteer donations, to make sure that 
our women have the same opportunities.
    Coaching is the same. We just hired our first ever all 
full-time women's basketball coach. We're providing the equal 
opportunities without reducing the men's. And we provide a lot 
of club sports. We require our cadets to do sports, because we 
understand the value of that activity, the physical exercise, 
toward their long-term health and service and ability to do 
their educational activities.
    We have club sports like Ultimate Frisbee and all that. Any 
given day, you can see cadets out on the fields, running around 
in loosely structured club sports in addition to the varsity 
programs.
    Ms. Hogshead-Makar. Can I just add that sports isn't for 
everyone, but it is for a lot more children than we are 
currently serving. Most athletic programs could literally 
double in size. As schools get bigger, the basketball team is 
still 15 kids. We could add lots of new different kinds of 
sports. And we need to make sure that kids who are late 
bloomers or who are genetically normal or who are already 
obese--that they still can fit into our sports program.
    What title IX does as a legal matter is it compares like 
programs. If you're giving boys this educational program called 
athletics, then girls need to have that, too. But there's no 
reason not to have an ``and'' situation--and yoga, and dance, 
and--but you would offer those probably on a gender neutral 
basis, not on a sex segregation basis for all of our kids. But 
it's not one or the other.
    I think part of what makes dance and what makes athletics 
valuable is because it's hard, because you do have to really 
commit yourself, because you really do have to put yourself out 
there. And I think that's what makes it so good for our 
country.
    The Chairman. Thank you all very much.
    Senator Enzi.
    Senator Enzi. Thank you. I made a lot of notes here, and I 
appreciate the testimony.
    Ms. King, I really appreciate the impediments that you 
listed in your testimony. And I think some of those impediments 
are probably for the academic part as well as the athletic 
part, and so I'll pay some attention to that.
    I also liked what you just said about keeping moving. 
Because of this committee, I've done some research, and I found 
that most people who die are retired.
    [Laughter.]
    Ms. King. So keep working.
    Senator Enzi. Now, that's the usual reaction that I get. 
People think it's funny. But they retire, they quit moving, and 
they die.
    Ms. King. Right.
    Senator Enzi. The ones that keep moving after they retire 
that do something that maybe they wanted to do all of their 
life live longer. So I appreciate your emphasis on that, and I 
still have some difficulties, I guess, with my thoughts, 
because I got to go to an aircraft carrier. And the specific 
reason they wanted me to see an aircraft carrier was to see the 
berthing rooms for women, and I thought surely for an event 
like that, they could let them go ashore. I didn't realize that 
was b-e-r-t-h, the berths. I probably should have figured that 
out.
    [Laughter.]
    I was involved with starting some kids soccer and midget 
basketball. And when we started those programs, they were so 
small that the boys and the girls played on the same teams. And 
that's been one of the best things that's happened to sports in 
our community. There isn't any--now, when they get older in 
high school, they pick up--they have to play girls' basketball 
or boys' basketball. They have to play girls' soccer or boys' 
soccer.
    But I can tell you the ones that played in that mixed 
program do much better. My daughter was in the soccer program, 
and one summer, she wanted to start going to summer camps. And 
I did a lot of research on it, and I found a camp that I 
thought would be perfect for her. She's very academic, and at 
this one, they were supposed to get half academic classroom 
training in soccer and then the other half play soccer.
    I was pretty sure I'd made a mistake when I got to the camp 
and there were people juggling the ball over their shoulder and 
talking about a shootout they had in Kenya or something. At the 
end of the week, when I went to pick her up, she was a little 
discouraged. She said, ``You know, everybody at this camp is 
better than I am.'' And I'd gotten to watch her play a little 
bit, and I said, ``Yes, but you are now better than every boy 
in your school.'' And she became all-State, so some of those 
things pay off.
    Dr. Jemison, I appreciate the three E's that you presented 
in your testimony, the exposure, expectation, and experience. I 
think it's very important, and I can hardly wait to read your 
book, Find Where the Wind Goes.
    On Fridays, because of the time change with Wyoming, I can 
get on a plane here and usually be in Wyoming in time to talk 
to some classrooms. And one of the things I talk to them about 
is the importance of decoding. Kids are usually into decoding. 
I don't know whether it's from Star Trek or what. But I tell 
them that's actually what reading is. It's learning to decode 
books.
    And there are so many books out there on so many topics 
that anything they want to know about, they can find in a book 
if they can learn to decode it. And if they don't learn to 
decode it, somebody else is going to be reading that book, and 
they are going to be doing much better than them. And I like to 
ask how many are athletes and if they're reading books about 
their sport, and that helps.
    But it sounds like this could be an opportunity to exchange 
books. They tell me books that I ought to read, and I mention 
some books that they ought to read, and I suspect this is one 
that I'll be suggesting that can help girls quite a bit.
    I've used up my time, but I will submit some questions for 
the record, if you'd do me the honor of answering them. Most of 
the questions came up here while we were doing this, and I 
appreciate all of the testimony and the answers that you've 
given today--a tremendous help. And there are things that we 
need to do on this, and that's what the questions will be 
about, what the next steps are.
    Ms. Hogshead-Makar, I appreciate your comments about we 
don't need litigation, that we need probably some data 
transparency and some compliance reviews. And I'll take a look 
at that and have some questions on that.
    Go ahead.
    Ms. Hogshead-Makar. There's only two things to argue about 
in a lawsuit: what are the facts, and what is the law? In most 
athletic cases, the facts are really clear, and now after 40 
years of litigation, the law is really clear. So schools should 
be doing--usually, their behavior--but we do need to have the 
law there in case.
    But one of my favorite lines is, when I'm talking to an 
athletic director, ``You can either believe me or a Federal 
judge.'' I'm glad to have the backup behind me. It's not just 
my personal good idea that these girls should have the same 
educational experience that the boys have.
    Senator Enzi. I think the law is essential, and I 
appreciate that comment from a law professor. Thank you.
    The Chairman. Senator Hagan.
    Senator Hagan. Mr. Chairman, I believe Senator Franken is 
next.
    The Chairman. Well, I always recognize in order of 
appearance. You were here before, even though you had to duck 
out. But if you would like to yield to Senator Franken, I will 
recognize----
    Senator Hagan. OK. Thank you.

                       Statement of Senator Hagan

    Dr. Jemison, I do apologize for leaving, but I am aware of 
the written testimony that you've submitted, and it's certainly 
inspiring. We must counter the notion that the STEM field is a 
male-only club. Women like you have long played an important 
role in the global quest for innovation. But as you well know, 
women still account for only 40 percent of our Nation's science 
and engineering degrees and just 25 percent of math and 
computer science jobs. And I think the challenges of the next 
century are too great for half of our population to sit them 
out. We have to start thinking outside the box.
    What are your thoughts, specifically, on ways for us at the 
Federal level to better support girls and young women in the 
STEM fields? I've heard so many times that we lose so many of 
our girls in middle school, that that's the age when all of a 
sudden they're no longer as interested in math and science as 
they should be.
    I'll have to admit, as a mother--I have one daughter who 
has her Ph.D. in geology--I know how hard it is to be sure to 
find all of those science programs, and after-school 
activities. There are lots of sports activities now, thank 
goodness to title IX, but we also need a lot more science and 
engineering.
    Dr. Jemison. What I'd like to start off with saying is that 
what we do to correct and help STEM field and STEM achievement 
for women will also improve STEM achievement for males. And the 
first thing we need to do is to really look at teacher 
training, because teachers in elementary school, which is where 
kids get a lot of that zest for life, the enthusiasm they have 
for what's going on in the world around them--in elementary 
school, that's beaten out of them by people who teach just by 
looking at the right answers. We need hands-on education.
    Teacher training is important because most elementary 
school teachers don't take any science classes in college. That 
means that what they're bringing to bear is whatever their 
biases and everything were when they were in high school. 
That's where they had their last science classes.
    Hands-on education makes a difference. Can you imagine 
trying to learn how to read without having a book to practice 
from? That's what reading is about. Science--you need to do 
experiments. It has to be hands-on. Kids love the bugs, the 
snails, the stuff in the couch--what is this? They love it. You 
have to be able to allow them to experiment, because it's 
really about the critical thinking, the problem solving skills, 
the confidence that you gain when you try something out, when 
you mix something.
    And that doesn't mean putting a computer in front of kids 
and watching things on computers. It means putting the plant, 
the potato plant, in the cup, measuring how fast the little 
eyes grow into stems. Those are the kinds of things that allow 
a child to explore the world. Those are the kinds of things 
that we need to do early on.
    I think one of the other things that we have to really pay 
attention to--and I don't know how we do this at a Federal 
level in terms of the Government, but particularly nationally--
is to change the expectations of what kids do. Right? We say 
all the time--we excuse poor accomplishment in STEM, right, in 
mathematics--I'm not so good at mathematics, but that's OK. 
That's not appropriate, because everyone can do these things. 
It's just a matter of us paying attention to it and making a 
difference.
    I would also like to say that when we start talking about 
the loss of talent--yes, when we don't include women, and they 
don't graduate, or they don't get involved in STEM jobs, 
whether it's jobs that require 4-year degrees, whether they're 
machinists or things like that, yes, we're losing a lot of the 
talent that we have available. But I think that there's 
something just as important. We're losing the perspective that 
women bring to different issues. And I don't mean in terms of 
whether they pay attention to what's going on at home or not. 
It's literally a perspective. Different people bring different 
perspectives.
    I wrote in my testimony that I remember when I went to 
medical school, the correct ``therapy,'' was a mastectomy for 
breast cancer. It's a very disfiguring and also harmful kind of 
a surgery. Yet it wasn't until women were involved that we 
actually started doing lumpectomies.
    When I was in medical school, people tried to help with 
testicular cancer. They'd do anything they could to keep from 
removing a testicle. And I just bring this up because it's a 
difference in perspective. We have different perspectives that 
bring to bear, and it would be a shame if we lost that 
perspective.
    Finally, Senator Harkin had mentioned earlier about 
people's perception that folks lose out when women come in, 
that men lose out. Because of title IX, how many nurses did you 
see who were male before title IX? I know, fundamentally, it's 
changed things for the better for men as well.
    Thank you.
    Senator Hagan. Mr. Chairman and Ranking Member Enzi, I 
really do appreciate you holding this hearing today. I think 
there is a lot of good information. Thank you.
    The Chairman. Thank you, Senator Hagan.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman. I second that.
    Dr. Jemison, in your answer to Senator Hagan's question, 
you kind of immediately went to teachers, the STEM teachers. 
And I think STEM teachers are really important. If you're a 
STEM teacher and a really good one, your value on the 
marketplace, if you have those STEM skills, might be higher 
than, you know, the great English teacher who teaches Moby 
Dick. But if you have science and technology and engineering 
and mathematic skills and talent, your value on the open market 
is higher.
    So I put in a piece of legislation called the STEM Master 
Teacher Corps, which is basically to support excellent STEM 
teachers and to give them a little bit of elevated salary, but 
also to give them a responsibility to mentor newer or less 
accomplished STEM teachers so that we retain them. I mean, 
we're spending money to recruit them. Let's retain STEM 
teachers in our junior highs and in our high schools.
    What do you think of that approach?
    Dr. Jemison. I think the approach of having master STEM 
teachers is very important. Yes, it's important in high school, 
but I'm going to harken back and go back to elementary school, 
because it's elementary school where kids still are fascinated 
by science, and they haven't learned that they're not supposed 
to be. It's in middle school where they start to fall out. So 
unless they have the really effective science education early 
on, it won't make a difference. And I should add that most of 
the STEM education, most of science, mathematics education in 
elementary school is done by general teachers, right, in first, 
second, third, fourth, fifth grade. Rarely do you have a 
teacher who specializes in STEM.
    I would add onto that that master teachers should be 
available to help proctor, mentor, augment, provide 
professional development for elementary school teachers, 
because that's where we really have to take advantage and 
exploit that incredible capacity that students have for 
learning. It's right there where you can capture them, and then 
they get through eighth grade and puberty and hormones and 
everything OK, and they're able to go on through high school 
and maintain that same enthusiasm. And then your master 
teachers there can also help to change the way teachers teach 
in high school.
    Senator Franken. Thank you for that answer, and I agree 
with you. I think that's a great function for these STEM master 
teachers to be there for elementary school teachers.
    I'll throw this open to everyone. I once read that the No. 
1 determinant of whether a kid graduates from high school is 
whether he or she identifies with her school. This can be 
through an athletic program. It can be through a dance program. 
It could be through the chess team. It can be through anything. 
But it seems like we have put this emphasis on testing and 
testing and testing in a very narrow way and not enough on 
those kinds of extracurriculars that are associated with the 
school for those students who maybe their identity--their 
feeling of identity with their own school comes through 
something else.
    Does anyone have any comment on that? And, again, this is 
about high school, not about college.
    Ms. King. So identifying with the school?
    Senator Franken. Yes. In other words----
    Ms. King. I went to Long Beach Poly, and I absolutely loved 
going there, because every morning, I looked up to my left and 
saw the home of scholars and champions--scholars first, 
champions--and we mean champions in life as well as everything. 
And then as I would enter the school, it said, ``Enter to 
learn. Go forth to serve.''
    Every single day, I went to school, which was almost every 
day. I absolutely embraced those two things, absolutely 
embraced them. We had great scholars at our school, and we had 
great athletes. In fact, we've probably had more NFL players 
and baseball and other sports than any other--the girls--that 
was a different situation when I attended. Now, it's obviously 
much better.
    But to add--can I just ask something about the order that 
math is taught, because I've talked to Dr. Sally Ride, who 
you've mentioned, and she said that most countries do the math 
in a different progression, that physics comes first, and 
then--but I know I had algebra first, and I would love to 
understand--does that make a difference? That was a big 
discussion I've been involved--I mean, I love science and math. 
I'm not any good at it, but we know we have to be strong in 
that area in this country.
    Dr. Jemison. Some people teach physics before they teach 
biology because they say physics is actually much simpler to 
learn. But you do need the algebra and other things to underpin 
the physics, so you need the algebra and the geometry.
    Some people think that you can teach algebra much earlier 
in school, so in seventh and eighth grades, students are 
capable of taking algebra and geometry. So I think that we do 
have to go back and really review our curriculum and whether or 
not some of the ideas that we held before are really----
    Ms. King. Because I keep hearing that other countries teach 
physics almost first because it's in everything. So I'm asking 
you. You're the pro.
    Senator Franken. Ms. King, I'm asking the questions here.
    [Laughter.]
    Ms. King. Sorry, Senator.
    [Laughter.]
    Ms. King. I thought we----
    Senator Franken. Go ahead.
    Ms. King. No, go ahead. But I don't understand--to your 
point, anyway, to get back to schools----
    Senator Franken. Are you competitive in some way?
    Ms. King. Yes, but I identified with the school thing. But, 
anyway, that was my school story. I just have this math 
question that drives me crazy. Sorry. You guys started it.
    Senator Franken. No, I'm fascinated, and I think--yes.
    Ms. King. Senator Hagan and Senator Franken, you started 
this teacher thing in the math and science--the STEM things.
    Admiral Stosz. Senator, as a recipient of young high school 
graduates into the Coast Guard Academy, I can attest that they 
are thirsting for identity in a world filled with more and more 
choices. An innumerable number of choices, and not always the 
direction that we would like to see them get with those kinds 
of targeted instructors, teachers, when they're in elementary 
school to develop them early on without necessarily the sense 
of core values and character that we need to see in them when 
they come to us. They are thirsting for identity. They are 
thirsting to be part of something bigger than themselves.
    Dr. Jemison. And I would just echo that the engagement 
makes a difference, that as you have students engaged in part 
of what they're doing, it makes a difference. I put together a 
program called The Earth We Share. We have 12- to 16-year-olds. 
I like to play with that hard age group.
    They solve problems in teams, and, fundamentally, they 
appreciate the fact that we're asking them to solve problems 
and asking them to give their answers in front of everyone, 
because that means that they're engaged, and it makes a 
difference that they, that individual, was a part of the 
process. They couldn't have been anyone else and come with that 
same answer, and I think that that's part of the identity that 
we see both with recognizing high schools, what high schools 
you went to, as well as whether or not you belong to some group 
that's doing well.
    Senator Franken. Ms. Hogshead-Makar, I saw that you had a 
comment.
    Ms. Hogshead-Makar. Yes. I hate to be a kill-joy here, but 
let me point to two different research studies, one, again, 
Betsey Stevenson, same research I was quoting before that 
looked at athletics, and she compared it with other afterschool 
activities--yearbook, debate team, et cetera--and found that 
sports uniquely provided this bump in education that other 
activities did not. I don't know if it's gender identity or--
not gender--I don't know if it's identity with the school.
    And there's one more interesting study that was done by 
Professor Clotfelter out of Duke University that looked at men 
who attend schools with successful football and basketball 
programs. And when the school is in season, they actually do 
worse in school and do not make it up later on in their 
academic career. So it has this negative bump that only affects 
males. Having a successful team does not affect females and 
their grade point averages. But there are fewer downloads of 
scholarly articles that never get made up later on with--it's 
not like we have Saturday and Sunday and there's more articles 
that are done.
    At the high school level, I had not heard that research 
before and I'm interested to dig more into it and see how this 
other research makes sense with that, because it seems like a 
very successful football and basketball program for men has a--
it may provide identity with the school, but it has a very 
negative impact on their education.
    Senator Franken. Well, we've gone well over my time. I 
blame Ms. King.
    [Laughter.]
    Ms. King. I'm sorry. I apologize, Senator Franken. You got 
me thinking. It's all your fault.
    Senator Franken. Well, you're a hero of mine, so you're 
forgiven, I guess.
    [Laughter.]
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Now Senator Blumenthal.

                    Statement of Senator Blumenthal

    Senator Blumenthal. Thank you, Mr. Chairman.
    And I just want to make clear that if you want to ask 
questions of each other, fine with me. You can even ask 
questions of me. I am not at all threatened. I am impressed.
    [Laughter.]
    Let me first of all thank you, Mr. Chairman, for having 
this hearing. It has been extraordinarily useful.
    Thank you for being here, each of you. You are genuinely 
heroes, not only role models for other women and girls, but 
really heroes.
    And I want to thank, particularly, Admiral Stosz. Thank you 
for your leadership at the Coast Guard Academy. You and I have 
seen each other in a variety of occasions and ceremonies, and I 
can attest, personally, to the difference that you've made in 
just a year at the Academy.
    I want to ask you, first of all, what do you think are the 
most difficult challenges you face in leading that educational 
institution, in attracting and keeping and supporting women? 
And what are the lessons that you think we can apply to other 
military academies in that way?
    Admiral Stosz. It's interesting you ask that question about 
the biggest challenges we have at the Coast Guard Academy in 
attracting women, because, actually, that's one of the strong 
points of our Coast Guard Academy. We offer young women a 
chance to serve their nation as a part of one of the five 
Federal service academies.
    But we offer in the Coast Guard so many various missions, 
as you know, 11 different broad missions from law enforcement 
to search and rescue to marine environmental protection. And 
our biggest major for women at the Coast Guard Academy of our 
eight majors, six of them being STEM, is our marine 
environmental science major.
    We find that we attract women in huge numbers. In fact, the 
bulk of our applicants this year in the class of 2016 coming in 
were women more than men this year. And 37 percent of our 
incoming class this year will be women. We actually find it a 
wealth of opportunity to reach out to the young women and 
attract them to the Coast Guard Academy.
    I guess the biggest challenges with retention come after 
graduation from the Coast Guard Academy. When young women 
graduate and start to have to make these tough tradeoff 
decisions of marriage and having children and serving their 
country, moving around a lot, there comes the retention 
challenge when all these choices add up to very tough tradeoff 
decisions for young women.
    Senator Blumenthal. Thank you. And those are really the 
same kinds of choices that face women in many different 
professions.
    Admiral Stosz. Yes, Senator.
    Senator Blumenthal. Let me ask you, Professor Hogshead-
Makar--I've said to people at various points, because I was 
attorney general of our State for 20 years, ``you can believe 
me or believe a Federal judge.'' I know that sometimes you have 
to tell someone that. But I wonder whether you have found that 
enforcement by the Federal Government has been sufficient, 
because, as you know as a professor of law, any law is only as 
good as the enforcement of it.
    What would be your judgment on how well Federal or other 
authorities are doing?
    Ms. Hogshead-Makar. I think that if you get a good 
investigator with the Office for Civil Rights, the OCR, you can 
get a very good result. But many times, you either don't get a 
good investigator or--after a complaint is filed, then the two 
parties come together, the school and the OCR. Those two 
parties get together, and the school will have some cockamamie 
excuse about--and that's a legal term--about why it is that 
they're doing something or why it is that something should be 
considered legal. And the plaintiff, or the person that filed 
the complaint, is completely left out of the process.
    So it can be very effective, and sometimes it's not. But 
what's really missing in terms of enforcement is having the 
Department of Education through the Office of Civil Rights go 
in and get an entire region, go and get an entire State. Forget 
this one-by-one school. We just have too many, and we don't 
have the resources for it. Let them go and file complaints and 
get compliance reviews and then have the school come and say, 
``Well, here's our defense'' or ``Here's why we're not giving 
boys and girls the same amount.''
    Senator Blumenthal. So a broader enforcement approach.
    Ms. Hogshead-Makar. A broader enforcement approach, yes. 
There's a guy that's been previewed in numerous magazines. His 
name is Herb Dempsey. Herb Dempsey is a retired guy whose 
daughters played sports, and has gone around and done this 
whack-a-mole kind of thing, and he's tired of it. He has tried 
to file these broad complaints, and the Department of Education 
has said--I mean, frankly, right now, they just don't have the 
resources. We need to give them the resources to be able to for 
all the reasons that I talked about before.
    There is no reason 40 years later--I used to be sympathetic 
to schools--oh, gosh, that's too bad. You didn't build the same 
softball facilities you built for the men's baseball, and now 
there's a budget crisis, and what are you going to do? Hey, 40 
years--I'm not sympathetic anymore, like you couldn't plan, you 
couldn't figure this out in 40 years? This is not new news for 
anybody as to what they need to be doing.
    Senator Blumenthal. Thank you. My time has expired, but I'd 
very much like to followup on this issue. And if you have 
further thoughts, perhaps we can talk about it some more.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Well, thank you very much to all of our 
witnesses for being here and your testimony.
    Chairman Harkin and Senator Enzi, thank you so much for 
holding this hearing. It's just really exciting to me that 40 
years ago, a mere 37 words really threw open the doors to 
athletics, education, and success for so many women in our 
country today. It was very simple, title IX, but it was very 
powerful, and it really has delivered some pretty amazing 
results. When you look at the statistics back in 1972, only 7 
percent of high school athletes were girls. In 2011, 42 percent 
were girls. We've made a lot of progress.
    But it isn't just about statistics. It is about real 
people. And I've seen it in my own family. When I went to 
college at Washington State University, there was maybe one or 
two opportunities for women, and, scholarships in athletics 
were unheard of. And 15 years later, watching my own daughter 
go to watch her classmates compete in high school basketball 
State championships and watching my daughter play soccer, and 
all of her friends who really succeeded in athletics--it is 
just really great to watch. I'm really proud of the progress we 
have made.
    But I also know the work is not yet done, and you've talked 
a little bit about that today. And we can't let up, because we 
need to keep expanding opportunities so my granddaughter one 
day will be able to say, ``And now here's where we are.'' And 
that's why I have co-sponsored bipartisan legislation with 
Senator Olympia Snowe to strengthen title IX and make sure it 
continues to deliver results for every young woman.
    Our bill is the High School Data Transparency Act, and what 
it does is shine a really bright light on how high schools are 
treating their female athletes, to make sure that we have good 
data on the numbers of female and male students and athletes as 
well as their budgets and expenditures. It'll give us the 
information at that level.
    Professor Hogshead-Makar, I wanted to ask you today: How 
have female college students benefited from the transparency 
that surrounds funding and resources for men's and women's 
college, and what have been the implications of not having that 
data at the high school level?
    Ms. Hogshead-Makar. You're referring to what's called the 
Equity in Athletics Disclosure Act that was passed, I believe, 
like 1990 or 1995, right around there--that you can go onto a 
Web site and look at what are the participation opportunities 
and what are the budgets and all those kinds of things.
    They do a number of things. No. 1, they tell girls before 
they go to the school whether or not they should go to that 
school. Are they really going to be valuing boys' and girls' 
sports experiences. If they want to go to a particular school 
that has the kind of elite or not elite level of sports that 
they want, it lets them know what that is. But it also lets 
them know whether or not it's fair for them to go into the 
athletic department and say, ``I want to start a new sport,'' 
or whether or not for a club team to go in and say, ``We want 
to be elevated up to varsity status.''
    So the first thing that happens--Jacksonville, FL, or 
University of North Florida cut its women's swimming team. I 
went onto the Equity Athletics Disclosure Act. I talked to the 
president of the university and said, ``Here's the numbers I 
have. Unless you can show me something different, you cannot 
cut your women's program.'' And within a week, the program was 
reinstated. It should be that easy.
    With high school, it's not so easy. Parents are very 
typically unsophisticated, and for them to be able to get that 
kind of data to make those spot changes of either not closing 
or adding new programs--it's very difficult for them to get 
that information. It's also the way that they're usually given 
information--most schools do provide boys and girls in the high 
school level with the same number of sports. But the boys' 
sports have a lot more participation. Football is 125, baseball 
is 35, basketball is 15. And here over on the girls' side, 
you'll have--tennis will be 8, golf will be 8, cross country 
will be 10.
    Looking at numbers of teams doesn't tell you very much. 
That's why we need to have this Transparency Act that will 
avoid litigation, as I was saying earlier, and enable families 
to go in--this is what we do. We sit there with a phone, and I 
try to educate them enough so that they can go and talk to 
their own athletic department and explain and get the resources 
that they need for their girls' teams.
    Senator Murray. I served on a school board many years ago. 
Believe me, to parents, knowledge is a powerful thing. So that 
information is important.
    Ms. King, did you want to add anything to that?
    Ms. King. No. I just would love to have this passed so we 
can get the data. We've been trying for years on the Hill to 
get this passed, because we know it's so necessary to what 
Nancy alluded to.
    Ms. Hogshead-Makar. Schools already have the data, and they 
already have to report it to the Department of Education. This 
is just making it available on a public Web site so that every 
family can see this information.
    Ms. King. And look at the numbers, not just the sports 
numbers, but the actual individual numbers.
    Ms. Hogshead-Makar. They already know how many kids are 
playing tennis or swimming or golf or lacrosse.
    Senator Murray. OK. Mr. Chairman, we are working very hard 
on that. I think it's a very important step in making sure that 
80 years from now we can really celebrate.
    Thank you, Mr. Chairman. I appreciate this hearing.
    The Chairman. Thank you very much, Senator Murray.
    I wanted to ask about that act. I'm glad you came. You're 
the chief sponsor of it, and, hopefully, we can get it through. 
I think the data is important and that we make sure that the 
public knows the data.
    Did anyone have--yes, Dr. Jemison.
    Dr. Jemison. I wanted to just add something in terms of 
data and transparency of data that sometimes comes not just 
from looking at what we're doing in the United States, but 
looking in other places. Right now, we're very comfortable with 
saying how many women are in engineering and thinking that as 
we're here in the United States that we're probably best in the 
class. But that's not true.
    One of the transparencies of data that I'd like for us to 
understand is, for example, that culture and biases do impact 
women strongly, and that bias keeps them from doing things even 
if you have the programs there. For example, we know that 40 
percent of the students at the University of Puerto Rico at 
Mayaguez's engineering programs are women. That's something 
that would be different to us. We know we have engineering 
programs, but how many are women?
    In Romania, 44 percent of the researchers in engineering 
and technology are women. Yet in the United States, only 11 
percent of the engineers are women. In some kind of way, as 
we're starting to look at the data, we also need to compare and 
see if there are other places we can go that we can start to 
understand and tease out what that data means and how do we 
respond to it.
    The Chairman. Again, role models like you help. But also, I 
think, in our elementary and secondary education, we've got to 
do more to focus on young women--in our grade schools and 
middle schools--to get them involved in more science and 
engineering. When I was a kid, engineers were men. That was 
just it. It was just men, and young women didn't aspire to 
that.
    But I think we have to do a better job in early grade 
school, making sure that they have the right course of 
instruction, and the support to know that they can become 
engineers or scientists or medical researchers. We haven't done 
as good a job as we should have in the past. We've got to do 
better in that area.
    Anything else that anybody wants to add that I didn't ask 
or didn't bring up or hasn't been said?
    Ms. Hogshead-Makar. I'll say one thing. The National 
Women's Law Center is today releasing something on pregnant and 
parenting students, that pregnant and parenting for both boys 
and girls, men and women, is something that keeps them from 
achieving their educational activities. Pregnancy 
discrimination is prohibited under title IX. But a lot of 
people don't know--what does that mean? I mean, if the girl has 
to go to have a physician's appointment, is that--I'm treating 
her just like I'm treating everybody else.
    In fact, the regulations are pretty clear that you need to 
treat that, No. 1, the same way you would treat any other 
short-term disability. And two is that pregnancy is a special 
category. Even if you don't take care of mononucleosis or you 
don't take care of a knee injury, you still need to take care 
of pregnancy in a way that's different. But, certainly, we need 
to make sure that women, not just in athletics, but women 
broadly are able to participate regardless of their pregnant or 
parenting status.
    The Chairman. Thank you.
    Senator Blumenthal, did you have anything else?
    Senator Blumenthal. Thank you, Mr. Chairman. I might just 
read one sentence, which I think is very telling, from that 
report. And it's,

          ``Unfortunately, four decades after its passage, far 
        too few lawmakers, school officials, parents, and 
        students are aware that title IX's prohibition against 
        sex discrimination protects pregnant and parenting 
        students.''

    I think that lack of awareness is very, very important.
    I wonder, Ms. King, and also, Professor, what your 
foundation is contemplating in terms of raising awareness or 
other steps that you're thinking about taking.
    Ms. Hogshead-Makar. Sure. I had the privilege of working 
with the NCAA to write model pregnant and parenting policies 
for schools. What was happening was Julie Foudy, a colleague of 
ours at the foundation, went and did a story on ``Outside the 
Lines'' showing that girls that were pregnant were being forced 
to have abortions or give up their scholarships.
    And right away, the NCAA got on it, hired me and a Ph.D. 
nurse practitioner, and we wrote out a legal memo and sort of 
an overall piece, but--policies that the schools can just 
literally take out of the material and put into their student 
handbook to let them know that they don't need to slink away 
and go off into the future, that their scholarship is 
protected, and that their ability to come back is protected, 
and that their rehabilitation is protected, and that--we need 
to make sure that our biases on what pregnancy does to a 
woman's body and whether or not women can still perform--a lot 
of coaches think like, ``Oh, after pregnancy, it's all over,'' 
and it's just not.
    We know in the tennis world and swimming world, we have 
Dara Torres, who is a parent and is still doing well. So, yes, 
there are model policies out there, particularly for athletics.
    Senator Blumenthal. Thank you, Mr. Chairman.
    The Chairman. I'd like to thank each of our witnesses for 
their excellent testimony. With the trails that you have all 
blazed and the important work that each of you do, you are an 
inspiration to all of us.
    For me, indeed, for the entire committee, this has been a 
very valuable hearing. It has reminded us of the many important 
advances that title IX has made possible for boys and girls, 
men and women, our entire country.
    We have come a long way since 1972. I am grateful for the 
opportunity to reflect on the positive strides we've made over 
the last 40 years in this issue, but also for the reminders 
that achieving full equality will require continued effort.
    We'll leave the record open for 10 days. I want to thank my 
colleagues for all their hard work, not just on gender equality 
but also the other important issues we work on in this 
committee.
    The HELP Committee will stand adjourned.
    Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

    Prepared Statement of Lisa Maatz, Director of Public Policy and 
 Government Relations, American Association of University Women (AAUW)
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
thank you for the opportunity to submit testimony for the hearing 
``Forty Years and Counting: The Triumphs of Title IX.''
    The American Association of University Women is a membership 
organization founded in 1881 with more than 145,000 members and 
supporters and 1,000 branches nationwide. AAUW is proud of its 131-year 
history of breaking through barriers for women and girls and has always 
been a strong supporter of gender equity in education. Today, AAUW 
continues its mission through education, research, and advocacy. Among 
AAUW's member-adopted public policy principles is a commitment to the 
``protection of programs that meet the needs of girls and women in 
elementary, secondary, and post-secondary education, including vigorous 
enforcement of title IX and all other civil rights laws pertaining to 
education.'' \1\
---------------------------------------------------------------------------
    \1\ AAUW. (June 2011). Public Policy Principles 2011-13). Retrieved 
June 22, 2012, from www.aauw.org/act/issue_advocacy/
principles_priorities.cfm.
---------------------------------------------------------------------------
    Title IX has created enormous opportunities for women and girls in 
education, opening doors that were previously closed. But not all doors 
have been opened. A recent report by the National Coalition for Women 
and Girls in Education, which AAUW is honored to chair, found that

          ``Girls and women have made great strides in education since 
        the passage of title IX. Time and again, girls and women have 
        proved that they have the interest and aptitude to succeed in 
        areas once considered the exclusive purview of males. Despite 
        tremendous progress, however, challenges to equality in 
        education still exist.'' \2\
---------------------------------------------------------------------------
    \2\ National Coalition for Women and Girls in Education. (June 
2012). Title IX: Working to Ensure Gender Equity in Education. 
Retrieved June 22, 2012, from http://ncwge.org/TitleIX40/TitleIX-
print.pdf.
---------------------------------------------------------------------------
               addressing gaps in athletic opportunities
    One key success of title IX has been the exponential increase of 
female participation in sports. In response to greater opportunities to 
play, the number of high school girls participating in sports has risen 
tenfold in the past 40 years, while six times as many women compete in 
collegiate sports. These gains demonstrate the principle underlying the 
legislation: women and girls have an equal interest in sports and 
deserve equal opportunities to participate.
    Despite the substantial benefits of participation in sports and 
title IX's protections against sex discrimination, the playing field is 
still not level for girls. Girls are twice as likely to be inactive as 
boys, and female students have fewer opportunities to participate in 
both high school and college sports than their male counterparts. 
Greater enforcement of title IX and diligent efforts to advance women 
and girls in sports are still necessary to achieve truly equal 
opportunity on the playing fields.
    This gap in opportunity is why AAUW supports the bipartisan High 
School Data Transparency Act (S. 1269), which was introduced by 
Senators Olympia Snowe (R-ME) and Patty Murray (D-WA). This bill would 
require that high schools report basic data on the number of female and 
male students participating in their athletic programs and the 
expenditures made for their sports teams. This is not a new burden for 
schools, which already collect the data required under this 
legislation. However, currently this data is not publicly available. 
This bill would make this baseline title IX information available to 
parents, students, teachers and anyone interested in monitoring a 
school's effort to provide equal athletic opportunities for all 
students.
    The importance of reporting data related to athletics lies at the 
heart of title IX enforcement. A record number of women are now 
actively participating in collegiate sports in large part due to the 
accountability requirements under the Equity in Athletics Disclosure 
Act of 1994, which requires colleges and universities to publicly 
account for how their athletic opportunities, resources, and dollars 
are allocated among male and female athletes. AAUW believes that in 
many cases sunshine can be the best of disinfectants, and that 
reporting requirements might account for part of the success in the 
narrowing athletics gap at the college level.
    It has been a significant drawback to title IX enforcement that no 
such accountability requirement exists at the high school level. While 
colleges must be transparent about their athletic opportunities and 
funding, high schools are not required to report data on either 
statistic to any higher authority. As a result, students, parents, and 
policymakers do not know which high school girls are being deprived of 
the opportunity to play sports. National studies show that while girls 
comprise half of the high school population, they receive only 41 
percent of all athletic participation opportunities--1.3 million fewer 
participation opportunities than male high school athletes.\3\ 
Statistics have shown that girls thrive when they participate in 
sports, and are less likely to get pregnant, drop out of school, do 
drugs, smoke, or develop mental illness.\4\
---------------------------------------------------------------------------
    \3\  National Federation of State High School Associations. (2009). 
2008-2009 High School Athletics Participation Survey. Retrieved March 
9, 2010, from www.nfhs.org/content.aspx?id=3282
&linkidentifier=id&itemid=3282 and National Center for Educational 
Statistics. 2006-07. Retrieved March 9, 2010 from http://nces.ed.gov/.
    \4\ Women's Sports Foundation. (December 12, 2007). Women's Sports 
& Physical Activity Facts & Statistics. Retrieved January 16, 2008, 
from www.womenssportsfoundation.org/binary-data/WSF_ARTICLE/pdf_file/
191.pdf.
---------------------------------------------------------------------------
    In addition, increasing children's physical activity can help 
combat childhood obesity, which is at an all-time high. Over the past 
three decades, childhood obesity rates in the United States have 
tripled, and today, one in three American children are overweight or 
obese.\5\ The issue is receiving even more attention after the creation 
of the Presidential Task Force on Childhood Obesity and the Let's Move 
program. The High School Data Transparency Act could aid in decreasing 
childhood obesity by helping to ensure that schools are providing all 
of their students with equal opportunities to benefit from school 
sports programs. The New York Times has highlighted research that found 
that the ``increase in girls' athletic participation caused by title IX 
was associated with a 7 percent lower risk of obesity 20 to 25 years 
later, when women were in their late 30s and early 40s.'' The study 
notes that while a 7 percent decline in obesity is modest, ``no other 
public health program can claim similar success.'' \6\ Simply put, 
properly enforcing title IX and increasing children's physical activity 
can lower obesity risks even into adulthood.
---------------------------------------------------------------------------
    \5\ The New York Times (February 16, 2010). As Girls Become Women, 
Sports Pay Dividends. Retrieved March 1, 2010, from www.nytimes.com/
2010/02/16/health/16well.html.
    \6\ Ibid.
---------------------------------------------------------------------------
    Because the benefits girls receive from participating in sports can 
lead to success in all aspects of life, AAUW supports the passage of 
the High School Data Transparency Act (S. 1269).
         confronting sexual harassment and bullying in schools
    AAUW believes that quality public education is the foundation of a 
democratic society, and strongly supports equitable school climates 
free of harassment and bullying.\7\ A recent AAUW report, Crossing the 
Line, found that nearly half of all middle and high school students 
report being sexually harassed in school.\8\ Sexual harassment and 
bullying have a damaging impact on the education of students, and 
disrupts students' ability to learn and succeed in their studies.\9\
---------------------------------------------------------------------------
    \7\ American Association of University Women. (June 2011). 2011-13 
AAUW Public Policy Program. Retrieved December 6, 2011, from 
www.aauw.org/advocacy/issue_advocacy/principles_priorities.cfm.
    \8\ AAUW. (2011). Crossing the Line. Retrieved June 22, 2012, from 
www.aauw.org/learn/research/crossingtheline.cfm.
    \9\ American Association of University Women. (2001). Hostile 
Hallways: Bullying, Teasing, and Sexual Harassment in School, 4. 
Retrieved on February 15, 2011, from www.aauw.org/learn/research/
upload/hostilehallways.pdf.
---------------------------------------------------------------------------
    Under title IX, schools have both the authority and obligation to 
tackle these problems. As the Department of Education Office for Civil 
Rights (OCR) said in 2010:

          Title IX prohibits harassment of both male and female 
        students regardless of the sex of the harasser--i.e., even if 
        the harasser and target are members of the same sex. It also 
        prohibits gender-based harassment, which may include acts of 
        verbal, nonverbal, or physical aggression, intimidation, or 
        hostility based on sex or sex-stereotyping.\10\
---------------------------------------------------------------------------
    \10\ U.S. Department of Education Office for Civil Rights. (October 
26, 2010). Dear Colleague Letter. Retrieved June 28, 2012, from 
www2.ed.gov/about/offices/list/ocr/letters/colleague-201010.pdf.

    OCR also found that title IX protects students from sexual 
---------------------------------------------------------------------------
harassment, finding that in 2011 that:

          ``The sexual harassment of students, including sexual 
        violence, interferes with students' right to receive an 
        education free from discrimination and, in the case of sexual 
        violence, is a crime.'' \11\
---------------------------------------------------------------------------
    \11\ U.S. Department of Education Office for Civil Rights. (April 
4, 2011). Dear Colleague Letter. Retrieved June 28, 2012, from 
www2.ed.gov/about/offices/list/ocr/letters/colleague-201104.pdf.

    Yet while Federal laws currently protect students on the basis of 
their race, color, sex, religion, disability or national origin, no 
Federal statute explicitly protects students on the basis of actual or 
perceived sexual orientation or gender identity. The Student Non-
Discrimination Act (H.R. 998/S. 555) would do just that. It would 
protect students from various forms of bullying and harassment, such as 
sex stereotyping and bullying based on a student's actual or perceived 
gender identity.
    Another critical law is the Safe Schools Improvement Act (H.R. 
1648/S. 506). This bipartisan legislation would help provide a safe 
learning environment for all our children at schools nationwide. It 
would make sure that States, districts, and schools have policies in 
place that prohibit bullying and harassment; that schools and districts 
establish complaint procedures to effectively respond to instances of 
harassment; and that States include information regarding bullying and 
harassment in their required drug and violence prevention reports. The 
SSIA would also provide opportunities for States, districts, and 
schools to offer professional development to faculty and staff to learn 
how to prevent bullying and harassment, and also to implement student 
education programs designed to teach students about the issues around, 
and consequences of, bullying and harassment.
    AAUW believes it is past time to pass the Student Non-
Discrimination Act (H.R. 998/S. 555) and the Safe Schools Improvement 
Act (H.R. 1648/S. 506).
                closing the gender gap in stem education
    Other challenges to gender equity in education persist, such as 
women and girls' lagging engagement in science, technology, 
engineering, and math fields. Although women now comprise a majority of 
college students, earning 57 percent of undergraduate degrees in 2006-
7,\12\ they are underrepresented in STEM fields.
---------------------------------------------------------------------------
    \12\ U.S. Department of Education, National Center for Education 
Statistics. (2009). The Condition of Education 2009 (NCES 2009-081). 
Retrieved March 22, 2012, from http://nces.ed.gov/pubs2009/2009081.pdf.
---------------------------------------------------------------------------
    Even when women do pursue STEM careers, their academic achievements 
still have not translated into workplace parity--particularly in 
academia. Women represent fewer than one in five faculty members 
employed in computer science, mathematics, engineering and the physical 
sciences.\13\ In engineering in particular, women account for just over 
1 in 10 faculty members.\14\ A National Academy of Sciences study, 
Beyond Bias and Barriers: Fulfilling the Potential of Women in Academic 
Science and Engineering, notes that women faculty are slower to gain 
promotion than men, are less likely to reach the highest academic rank, 
have lower salaries, and are awarded less grant money than their male 
colleagues.\15\ At the university level, perceptions of equity vary 
among faculty. Through research at Virginia Tech, the Society of Women 
Engineers has found that 78 percent of male faculty members believe 
that faculty members are treated fairly regardless of gender, versus 
only 41 percent of female faculty members.\16\
---------------------------------------------------------------------------
    \13\ Commission on Professionals in Science and Technology. CPST 
(2006) Professional Women and Minorities: A Total Human Resources Data 
Compendium. 16th ed. Washington, DC.
    \14\ Ibid.
    \15\ National Academies of Science. (2006). Beyond Bias and 
Barriers: Fulfilling the Potential of Women in Academic Science and 
Engineering. Retrieved March 22, 2012, from www.nap.edu/
catalog.php?record_id=11741#toc.
    \16\ Layne, Margaret Edith. (June 19, 2007). ``U.S. House Committee 
on Education and Labor Hearing, 110th Congress: Building on the Success 
of 35 Years of Title IX.'' Retrieved March 22, 2012, from http://
frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=110_house_hearings&
docid=f:35961.pdf.
---------------------------------------------------------------------------
    Further, Beyond Bias and Barriers concludes that women face a 
lifetime of subtle biases that discourage them from careers in science 
and engineering.\17\ AAUW highlighted the same problem in its report 
Why So Few, which found that girls who pursue STEM fields are still 
stigmatized, and that harmful stereotypes persist regarding girls' lack 
of ability and/or interest in STEM. Girls in K-12 are discouraged from 
pursuing mathematics and science courses; undergraduate women transfer 
out of STEM fields before graduating because of unsupportive classroom 
environments characterized by lack of role models, a limited peer 
group, and outdated pedagogy; and women scientists and engineers earn 
less and advance more slowly than men in both academia and the private 
sector.\18\
---------------------------------------------------------------------------
    \17\ National Academies of Science. (2006). Beyond Bias and 
Barriers: Fulfilling the Potential of Women in Academic Science and 
Engineering. Retrieved March 22, 2012, from www.nap.edu/
catalog.php?record_id=11741#toc.
    \18\ AAUW. (2010). Why So Few? Women in Science, Technology, 
Engineering, and Mathematics. Retrieved October 21, 2011, from 
aauw.org/learn/research/upload/whysofew.pdf.
---------------------------------------------------------------------------
    To overcome these challenges, AAUW supports requiring Federal 
agencies to broadly and proactively conduct title IX compliance 
reviews. Title IX regulations require recipients of Federal education 
funding to evaluate their current policies and practices, and adopt and 
publish grievance procedures and a policy against sex discrimination. 
All agencies are required by law to ensure they are not violating title 
IX; however very few title IX reviews are conducted outside of the 
Department of Education. Simply put, title IX reviews ensure that women 
are not being discriminated against. Federal agencies and departments 
should conduct title IX compliance reviews at grantee institutions 
regularly. AAUW believes that it should be a government-wide priority 
that agencies use their contracting and grant making authority to 
ensure universities receiving agency funding are complying with title 
IX.
    These and other challenges affect the ability of all students--male 
and female--to get the most out of their education. This in turn 
endangers the ability of U.S. schools and universities to produce 
skilled workers who can succeed in an increasingly competitive global 
marketplace. Title IX is an important law, and has a critical role in 
the quality of our students' education. We must ensure that it is as 
robust as possible.
    Thank you for this opportunity to submit testimony to the committee 
on this important issue.
                                 ______
                                 
                       National Women's Law Center,
                                      Washington, DC 20036,
                                                     June 19, 2012.
Tom Harkin, Chairman,
Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20515.

    Dear Chairman Harkin and Ranking Member Enzi: Thank you for the 
opportunity to submit a letter for today's hearing, ``Forty Years and 
Counting: The Triumphs of Title IX.'' The National Women's Law Center 
has worked since 1972 to advance and protect the legal rights of women 
and girls across the country. The Center focuses on major policy areas 
of importance to women and their families, including education, 
employment, health and reproductive rights, and economic security--with 
particular attention paid to the concerns of low-income women. The 
Center is grateful that the committee is shining a spotlight on the 
tremendous progress that has been made for women and girls over the 
last four decades. We also know that title IX's important work to 
remove discriminatory barriers is far from complete.
    Today the Center released a comprehensive report that shows the 
impact of pervasive discrimination against an often overlooked area of 
title IX--pregnant and parenting students. A Pregnancy Test for 
Schools: The Impact of Education Laws on Pregnant and Parenting 
Students \19\ details the many obstacles to completing their secondary 
education that pregnant and parenting students face, include 
discouragement from teachers and school administrators--and in some 
cases pressure to drop out or attend an inferior alternative program; 
policies that penalize them for pregnancy-related absences and do not 
allow them to make up missed work; denial of access to homebound 
instruction when absent for an extended period due to pregnancy or 
childbirth; and dismissal from participation in extracurricular 
activities or eligibility for school honors. All of these barriers 
violate title IX and push pregnant and parenting students out of 
school, particularly in light of the other difficulties they face 
finding and paying for child care, accessing safe and affordable 
transportation to and from school and their child care facility with an 
infant or small child, and juggling schoolwork, parenthood, and even a 
job.
---------------------------------------------------------------------------
    \19\ ``Pregnancy Test for Schools: The Impact of Education Laws on 
Pregnant and Parenting Students'' may be found at www.nwlc.org/site/
default/files/findg_nwlc_pregnantparenting_
report.pdf.
---------------------------------------------------------------------------
    Title IX can and should play a vital role in ensuring that our most 
vulnerable students meet their educational goals. The dropout 
statistics for pregnant and parenting students are stark: only about 50 
percent of teen mothers get a high school diploma by age 22, compared 
with 89 percent who do not have a child during their teen years. One-
third of teen mothers never get a G.E.D. or a diploma. And the children 
of dropouts are more likely to drop out themselves. But research data 
demonstrate that when pregnant teens are given support to stay in 
school, their high school graduation rates rise.
    On the 40th anniversary of title IX, equal opportunities and 
educational support for pregnant and parenting students should be a 
priority for Federal policymakers. The Center's report is part of its 
larger campaign to address discrimination against pregnant and 
parenting students and schools' diminished expectations of them. A 
Pregnancy Test for Schools offers concrete solutions for policymakers 
to address the needs of pregnant and parenting students so our country 
can reap the benefit of these students' talents and skills.
    We look forward to working with you to ensure that all of our 
Nation's children have equal opportunities to learn and achieve 
economic security. If you have any questions, please feel free to call 
Fatima Goss Graves or Lara S. Kaufmann at 202-588-5180.
            Sincerely,
                                        Fatima Goss Graves,
                         Vice President for Education & Employment.

       Response to Questions of Senator Enzi and Senator Murray 
                          by Billie Jean King
                              senator enzi
    Question 1. As each of you have discussed, title IX has had a 
profound impact over the past 40 years and has helped open up 
opportunities for millions of women. With that in mind, what more needs 
to be done? In what ways has title IX not achieved its goals? Where are 
we still failing in our efforts to provide equal access to women and 
girls in education?
    Answer 1. Enforcement. Currently schools can offer wildly skewed 
sports opportunities because there is no oversight by the Government, 
the NCAA or other athletic associations. Unless a teenager or young 
adult is willing to either file a complaint with the OCR or file a 
lawsuit in Federal court, schools are structuring their athletic 
departments according to their own perceptions of suitable sports 
offerings for boys and girls.
    Currently, the OCR is only reviewing schools one at a time for 
compliance after a complaint, and only focusing on the discrepancies 
mentioned in the complaint. Because of the well-known, widespread 
gender-equity issues in athletics, the OCR should instead be reviewing 
entire States or school districts for compliance. Moreover, these 
reviews should not focus on one area of compliance, like facilities or 
equipment, but should focus on the entire athletics department: 
participation, treatment and scholarships, if applicable.
    Some issues need to be addressed, but title IX may not be the 
correct remedy. While title IX has increased the numbers of girls able 
to participate in and enjoy the benefits of sports in school, its 
impact has been in comparing the number and quality of opportunities 
offered to boys. Unfortunately, it doesn't help us reach girls in 
schools and communities that have limited resources, where sports 
programs for both girls and boys are either reduced or eliminated due 
to budget constraints. This means girls in underserved communities, 
especially dense urban environments and rural areas, aren't able to 
participate at the same levels as girls in areas of higher income, such 
as suburban communities. We have to address these inadequacies to 
ensure all girls can benefit from sports, from the positive health 
outcomes to increased self-confidence and success as an alternative to 
risky behaviors.

    Question 2. What advice would each of you give to today's 
generation of young women?
    Answer 2. Pressure is a privilege. It's important to step up to the 
challenges we face and overcome them for ourselves and others. 
Sometimes pressure will take you out of your comfort zone. There will 
likely be setbacks, but if we make the effort, then even ``failure'' 
becomes a learning point to help achieve success in our next efforts. 
And ask for help.
    Asking for help is a simple element in embracing and working with 
pressure. Find a mentor, a counselor, a good friend, or therapist to 
help you achieve success. These people can offer feedback and ideas to 
help you approach your challenge, and you'll find that many people want 
to help.
    The moments of great pressure in your life are borne out of the 
importance of the situation. It is a privilege to have opportunities, 
to be trusted to lead a team, to be asked to head a project, to love 
someone or be loved--and if you can see it that way, you can handle 
almost anything with calm and grace.
    It is our hope that many of the students will take it upon 
themselves to make sure their school is treating boys and girls equally 
in athletics, and all other aspects of the school. They can get started 
here, ``Step by Step: A Practical Guide for Achieving Gender Equity in 
School Sports'': http://www.womenssportsfoundation.org/home/athletes/
for-athletes/know-your-rights/parent-resources/step-by-step-guide-
school-sports.
    If they have any questions, they can call the Women's Sports 
Foundation at 1-800-227-3988, or e-mail at: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aeefcad8c1cdcfcdd7eef9c1c3cbc0ddfddec1dcdadde8c1dbc0cacfdac7c1c080c1dcc980">[email&#160;protected]</a>

    Question 3. Besides title IX what other effective steps have 
institutions and States been taking to improve educational 
opportunities for women?
    Answer 3. I applaud the school districts that have put physical 
education and physical activity back into the curriculum for their 
students, because sound minds need sound bodies for both boys and 
girls. Due to funding constraints, many school districts do not offer 
quality PE and many have been cutting after-school sports; however, 
schools are now looking to partner with community-based organizations 
to return physical activity to the school environment. The Women's 
Sports Foundation's GoGirlGo! program is a strong example of getting 
girls in underserved communities the right attention and direction they 
need to learn how to be physically active, through a sports-based 
curriculum which also shares life lessons on how to cope with the 
stress factors girls face. Through GoGirlGo! and similar community-
based programs, girls are able to overcome stereotypes, bullying, 
drugs, peer pressure, and other negative influences to become confident 
and successful students, greatly enhancing their success rates as 
adults.
    Several States have passed their own version of the High School 
Data Transparency Act. Pennsylvania is the most recent State to have 
adopted this law, along with New Mexico, Kentucky and Georgia. http://
womenslawproject.wordpress.com/2012/07/03/victory-for-womens-athletic-
equity-pa-high-school-disclosure-bill-passes
/.
                             senator murray
    Question 1. In your testimony, you indicated that girls have 1.3 
million fewer chances to play sports in high school than boys. While 
colleges are required to report data on gender equity in sports, there 
is no such requirement for high schools. In what ways does this lack of 
data and transparency make it more difficult to ensure fairness in 
athletic opportunities at the high school level?
    Answer 1. The Women's Sports Foundation is fully supportive of your 
bill, the High School Data Transparency Act. Each year we carry the 
message to all of Congress during National Girls and Women in Sports 
Day, the first Wednesday of each February.
    Knowledge is power. Schools regularly report to the Women's Sports 
Foundation that they do not know if they are in compliance with title 
IX or not.
    A reporting requirement would make it clear that schools were 
offering girls lop-sided athletics opportunities.

    Question 2. Research indicates that access to sports has a positive 
impact on girls, yet we have no ongoing Federal data collection on 
equality of access to, funding for, and quality of girls' organized 
sports in the middle or high school. The High School Data Transparency 
Act of 2011, would require schools to report this information. What 
effects would the increased transparency and data have on your work at 
the Women's Sports Foundation?
    Answer 2. The Women's Sports Foundation could use this data to 
advance our efforts toward equality in a number of ways. The Women's 
Sports Foundation and the University of Michigan have teamed up to 
establish the Women's Sports, Health and Activity Research and Policy 
Center (SHARP). Goals include supporting evidence-based public debates 
and policies that help eliminate obstacles girls and women face in 
sports participation. Without the data, there can be no research to 
study the effect on low-income girls or girls of color, how their 
health, employment and educational trajectory may be changed by playing 
a sport.
       Response to Questions of Senator Enzi and Senator Murray 
                    by Rear Admiral Sandra L. Stosz
                              senator enzi
    Question 1. As each of you have discussed, title IX has had a 
profound impact over the past 40 years and has helped open up 
opportunities for millions of women. With that in mind, what more needs 
to be done? In what ways has title IX not achieved its goals? Where are 
we still failing in our efforts to provide equal access to women and 
girls in education?
    Answer 1. In the past year within Athletics Division at the U.S. 
Coast Guard Academy, we have formed a Council on Women's Sports in our 
department--led by the senior woman administrator and composed of our 
faculty athletic representative, assistant athletic director for 
facilities and head coaches of women's varsity NCAA teams. The Council 
meets three times annually to discuss issues currently faced by our 
women's sports programs, and to help guarantee that gender equity is 
always at the forefront of our strategic planning processes.

    Question 2. What advice would each of you give to today's 
generation of young women?
    Answer 2. At the Coast Guard Academy, the 1,000 member corps of 
cadets is comprised of approximately one-third women. Each cadet, 
regardless of sex, has equal access to academic majors and varsity, 
club, and intramural sports. In addition, when cadets graduate with 
Bachelor of Science degrees and commissions as ensigns in the U.S. 
Coast Guard, every specialty is open to women and men alike, including 
the most challenging operational specialties such as aviation and 
surface operations (assignments to pilot aircraft and to command ships 
and other operational units).
    My advice to today's generation of cadets, specifically our women 
cadets, is to seize every opportunity and take these tough, challenging 
assignments that stretch a person beyond their comfort zone. Young 
women and young men will develop the confidence they need to succeed in 
their personal and professional lives if they reach for every 
opportunity, find their passion, work hard and persevere to achieve 
their goals and finally, believe in themselves and their personal 
choices.

    Question. 3 Besides title IX what other effective steps have 
institutions and States been taking to improve educational 
opportunities for women?
    Answer 3. At the Coast Guard Academy the keys to our success have 
included our intense focus on providing strong female role models 
within the professoriate (military and civilian) and becoming more 
involved in generating interest in grades five through eight, where the 
mathematics and science preparation and interest are at a critical 
crossroad, particularly for young girls. The Academy also continuously 
reinforces the ``growth mind set' as a necessary characteristic of a 
leader for our Service. As a result, all cadets become very involved in 
developing professional skills that greatly complement science, 
technology, engineering, and mathematics (STEM) related skills. Success 
in developing and applying these skills promotes confidence in one's 
ability to think critically and solve complex problems.
    We have made great progress in motivating young women to pursue 
science, technology, engineering, and mathematics (STEM) degrees. In 
2011, the Coast Guard Academy was recognized by Forbes magazine as one 
of the ``Top Ten Colleges for Women in STEM'' because of our level of 
representation by women in those educational fields. http://
www.piersystem.com/go/doc/2487/1008971/
    For example, a Deepwater Horizon-like oil spill or an earthquake in 
Haiti create tremendous technical challenges in mitigating the damage 
to societies and ecosystems. Tragic events such as these offer case 
studies in which cadets can participate in the development of real-life 
solutions to real-life problems. How fast is the oil plume moving? What 
is the flow rate? How much oil is left in the water? What is the 
probability of a disease outbreak? These are all questions that are 
addressed within the context of our curriculum at the Academy.
                             senator murray
    Question. As Superintendent of the U.S. Coast Guard Academy, what 
steps have you taken to increase access for women to the academy and 
graduation rates of women at the academy?
    Answer. The Coast Guard Academy is committed by its ``Build a 
Community of Inclusion'' strategy to actualize the educational 
potential and retention opportunities that having a critical mass of 
women and underrepresented minorities offer. The Academy is confident 
that simultaneously increasing the number of women faculty, coaches, 
and staff will positively affect the retention and quality of 
experience women cadets will have in their educational and professional 
experience. We are also confident that diversifying our curriculum will 
further enhance the experience for women in a positive manner.
    Two years ago the first ever Gender and Race in the Military course 
was developed in the Humanities Department, allowing for a theoretical 
and experiential educational opportunity that became the genesis for 
the now active cadet Women's Leadership Council. Women comprise 28 
percent of our current faculty, which has allowed for greater mentoring 
and professional development. This has resulted in the creation of the 
cadet Women's Leadership Council, which has significant faculty, 
senior, and junior women officers heavily involved in professional 
development and mentorship opportunities.
    Our aspirational goals are to continue to increase the number of 
women at all levels in the organization, based on the mentorship and 
professional development contact doctrine. We are in the process of 
developing an Equity Scorecard to track complex inter-relational 
aspects of the cadet experience that impact retention based on 
demographics, to ensure all groups are graduating in equitable 
proportions. In general, longitudinal data since 2009 shows that there 
is relatively little statistical difference in retention and graduation 
rates for women at the Academy.

                                          Retention and Graduation Rates by Gender: Classes 2002 to Present \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           CGA Cadet class year  (In percent)
---------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   2002    2003    2004    2005    2006    2007    2008    2009    2010    2011    2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
Graduated.......................................................      60      59      64      75      72      77      72      74      77      85      77
  Female........................................................      58      60      72      75      71      81      75      77      69      85      76
  Male..........................................................      61      58      61      74      72      75      71      73      79      84      77
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Graduation percentages are as of July 5, 2012 and include extended opportunity graduates.

    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                                    

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
